<html>
<title> - A RECORD SIX MILLION U.S. JOB VACANCIES: REASONS AND REMEDIES</title>
<body><pre>[Senate Hearing 115-80]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 115-80

     A RECORD SIX MILLION U.S. JOB VACANCIES: REASONS AND REMEDIES

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2017

                               __________

          Printed for the use of the Joint Economic Committee





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                                

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-601                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Patrick J. Tiberi, Ohio, Chairman    Mike Lee, Utah, Vice Chairman
Erik Paulsen, Minnesota              Tom Cotton, Arkansas
David Schweikert, Arizona            Ben Sasse, Nebraska
Barbara Comstock, Virginia           Rob Portman, Ohio
Darin LaHood, Illinois               Ted Cruz, Texas
Francis Rooney, Florida              Bill Cassidy, M.D., Louisiana
Carolyn B. Maloney, New York         Martin Heinrich, New Mexico, 
John Delaney, Maryland                   Ranking
Alma S. Adams, Ph.D., North          Amy Klobuchar, Minnesota
    Carolina                         Gary C. Peters, Michigan
Donald S. Beyer, Jr., Virginia       Margaret Wood Hassan, New 
                                         Hampshire

                 Whitney K. Daffner, Executive Director
             Kimberly S. Corbin, Democratic Staff Director
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Patrick J. Tiberi, Chairman, a U.S. Representative from Ohio     1
Hon. Martin Heinrich, Ranking Member, a U.S. Senator from New 
  Mexico.........................................................     2

                               Witnesses

Statement of Ms. Diana Furchtgott-Roth, Senior Fellow and 
  Director of the Economics21 Program, Manhattan Institute.......     4
Statement of Dr. David T. Harrison, President, Columbus State 
  Community College..............................................     6
Statement of Mr. Scot McLemore, Technical Workforce Development, 
  Manager, Honda North America, Inc..............................     8
Statement of Dr. Betsey Stevenson, Associate Professor of Public 
  Policy at the Gerald R. Ford School of Public Policy, 
  University of Michigan.........................................    10

                       Submissions for the Record

Prepared statement of Hon. Patrick J. Tiberi, Chairman, a U.S. 
  Representative from Ohio.......................................    36
Prepared statement of Hon. Martin Heinrich, Ranking Member, a 
  U.S. Senator from New Mexico...................................    36
Prepared statement of Ms. Diana Furchtgott-Roth, Senior Fellow 
  and Director of the Economics21 Program, Manhattan Institute...    38
Prepared statement of Dr. David T. Harrison, President, Columbus 
  State Community College........................................    62
Prepared statement of Mr. Scot McLemore, Technical Workforce 
  Development, Manager, Honda North America, Inc.................    71
Prepared statement of Dr. Betsey Stevenson, Associate Professor 
  of Public Policy at the Gerald R. Ford School of Public Policy, 
  University of Michigan.........................................    74
Article titled ``Our Miserable 21st Century''....................    78
Response from Ms. Furchtgott-Roth to Questions for the Record 
  Submitted by Senator Klobuchar.................................    85
Response from Dr. David T. Harrison to Questions for the Record 
  Submitted by Senator Klobuchar.................................    86
Response from Mr. Scot McLemore to Questions for the Record 
  Submitted by Senator Klobuchar.................................    87
Response from Dr. Betsey Stevenson to Questions for the Record 
  Submitted by Senator Klobuchar.................................    87

 
     A RECORD SIX MILLION U.S. JOB VACANCIES: REASONS AND REMEDIES

                              ----------                              


                        WEDNESDAY, JULY 12, 2017

                    United States Congress,
                          Joint Economic Committee,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2020, Rayburn House Office Building, Hon. Pat Tiberi, Chairman, 
presiding.
    Representatives present: Tiberi, Paulsen, Schweikert, 
LaHood, Rooney, Maloney, Delaney, and Beyer.
    Senators present: Heinrich, Peters, and Hassan.
    Staff present: Breann Almos, Theodore Boll, Whitney 
Daffner, Connie Foster, Colleen Healy, Paul Lapointe, AJ 
McKeown, Thomas Nicholas, Russell Rhine, and Alex Schibuola.

 OPENING STATEMENT OF HON. PATRICK J. TIBERI, CHAIRMAN, A U.S. 
                    REPRESENTATIVE FROM OHIO

    Representative Tiberi. Good morning, and welcome to the 
Joint Economic Committee's hearing on job vacancies in the 
labor market. I want to especially welcome, from the Senate 
side, our ranking member, Senator Heinrich, as well as other 
members of the committee who expressed interest in exploring 
this important topic.
    On the surface, low unemployment and a large number of 
vacancies suggest that the labor market is tightening. However, 
wage growth has been slow and many potential workers remain on 
the sidelines. Something is not yet right with the U.S. labor 
market.
    I have heard from many employers in Ohio and around the 
country that they are still struggling to fill good-paying job 
vacancies. These employers tell me about people not being able 
to pass a drug test, people not having the skill set to qualify 
for job openings.
    I believe there are causes on the demand side as well as 
the supply side of the labor market, and among both are 
economic policies by the last administration that weakened the 
recovery of business investment, labor productivity, and work 
incentives after the last recession.
    Business investment and productivity must rise faster for 
wages to rise faster, and more people must join the workforce 
to raise economic growth.
    The U.S. population is still growing. Since just prior to 
the last recession, the population has increased by 22 million 
people of working age, yet the labor force has increased by 
only 6 million people. The baby boom generation is moving into 
retirement, but people in their prime working years also are 
participating less in the labor force than before the 
recession.
    In addition to the work Congress and the administration are 
doing to reform taxes, improve regulation, and alleviate 
unnecessary government mandates, we must also focus our 
attention on improving the institutions that prepare our 
workforce for new challenges. That is why I have invited expert 
witnesses to this hearing who can provide perspectives from the 
economist's, the educator's, and the employer's point of view.
    We must explore the value to the economy and individuals of 
sending ever more people to college, how well high schools 
position graduates for the workplace, how employer requirements 
inform the educational system, and what employers are 
contributing to the skill development of current and 
prospective employees.
    In the United States, we must find better ways to equip 
young people and workers of all ages with marketable skills and 
the ability to adapt to the changing market demands as they 
progress through their careers.
    I look forward to learning from the insights of our expert 
panelists today on how to improve worker proficiency, 
flexibility, and motivation. Faster economic growth and rising 
living standards for American families result from getting this 
policy right.
    With that, I now yield to our Ranking Member Heinrich for 
his opening statement.
    [The prepared statement of Chairman Tiberi appears in the 
Submissions for the Record on page 36.]

 OPENING STATEMENT OF HON. MARTIN HEINRICH, RANKING MEMBER, A 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you, Chairman Tiberi. And I want to 
thank our panel for joining us here today.
    The employment picture is certainly brighter than it was 8 
years ago, but not as bright as this country wants or needs. 
Too many Americans still can't find a job or are in jobs that 
pay wages too low to achieve financial security.
    Employers complain that they can't find candidates with the 
right skills to grow their business, and in some parts of the 
country, for example, many rural areas, have largely been left 
out and need basic investment. Today, we are focusing on one 
way to create opportunities for more Americans, namely by 
investing in education and training options.
    Some industries in some regions of the country face a 
mismatch between the skills employers need and the skills that 
workers have. Addressing this is important, but that alone 
won't adequately improve the economy or strengthen financial 
security for families and for communities. To do that, Congress 
must work with State and local leaders to take an all-of-the-
above approach that supports workers and businesses.
    In the 21st century economy, college is increasingly 
important for financial security. Congress has a significant 
role to play in making sure that students are not priced out of 
the future that they want and are ready to work for. Access to 
an affordable college degree must be available to every student 
who desires it.
    We also know that a college degree is not and should not be 
the only path to a bright future. Career and technical 
education, apprenticeships, and other training programs lead to 
good-paying jobs. Here, community colleges have a critical role 
to play because they understand the needs of local employers, 
are committed to creating opportunities for their students, and 
can design programs and courses that are responsive to 
employers' current and future needs.
    TechHire Albuquerque launched earlier this year in New 
Mexico using a Federal grant program. Central New Mexico 
Community College partnered with employers and State agencies 
to create an IT pipeline by providing training, work 
experience, and job placement. Graduates learn new computer 
skills, coding skills, earn industry-recognized credentials, 
and are able to put those skills to use with area employers. 
Employers are able to fill open positions with candidates that 
they know have proven skills, and that is the type of 
innovation and creative problem-solving Congress should be 
promoting.
    It is also critical that we target training at high-growth 
sectors of our economy. That is what Central New Mexico 
Community College has done with its Stemulus Center, offering 
coding boot camps and new classes in Java, Android, and 
Salesforce.
    This week, Senator Gardner of Colorado and I introduced the 
CHANCE in Tech Act, which encourages educators and businesses 
to start apprenticeship programs for the tech sector. This will 
connect more Americans to a growing sector where jobs are 
opening up each and every day.
    In an all-of-the-above approach, we must recognize that 
investing in the workforce starts well before college or even 
high school, for that matter. It starts by investing in proven 
programs that set children up for success later in life. This 
is why access to universal pre-K is so important and why I am a 
strong advocate of the two-generation approach, which provides 
quality early education for children, while at the same time 
providing workforce training for those children's parents.
    We have seen this work in New Mexico. The United Way Early 
Learning Center in Santa Fe offers year-round full-day services 
for children alongside technology, employment, and social 
service assistance for their parents.
    For workers to remain competitive in the future economy, 
learning and skills development must continue over the course 
of a lifetime. Companies must get back in the business of 
investing in their workers, not just because it is the right 
thing to do, but because it is the prosperous thing to do for 
the business and for workers alike.
    There is much work for us to do here. For the Nation to be 
competitive in the future economy we are going to have to find 
some new solutions. And I look forward to hearing from our 
witnesses with their ideas.
    Thank you, Chairman.
    [The prepared statement of Senator Heinrich appears in the 
Submissions for the Record on page 36.]
    Representative Tiberi. Thank you, Senator.
    I would like to now introduce our expert panel of 
witnesses. First, Ms. Diana Furchtgott-Roth is a senior fellow 
at the Manhattan Institute and the director of the Economics21 
Program, recently served on the transition team for President 
Donald Trump. She served as chief economist at the Department 
of Labor from 2003 to 2005. Before that, she served in multiple 
roles for the George W. Bush, George H. Bush, and Ronald Reagan 
administrations. She holds a BA in economics from Swarthmore 
College, and a master's of philosophy in economics from Oxford 
University.
    Welcome. Thank you for being here.
    Dr. David Harrison is the fifth president of Columbus State 
Community College. In his role, he initiated innovative 
projects, such as the Preferred Pathway Program, which 
guarantees Columbus State graduates entry into Ohio's superb 
universities, including our alma mater, the Ohio State 
University. He also led the formation of the Central Ohio 
Compact, a regional strategy among K through 12 and higher 
education leaders, to help more students succeed in college and 
in the workplace. Under Dr. Harrison's leadership, Columbus 
State has received multiple distinctions for its innovative 
efforts.
    Dr. Harrison, thank you for being here. And, as you know, I 
have a special place in my heart for Columbus State. I took 
real estate classes there and my two sisters went there.
    Scot McLemore leads the development and execution of talent 
acquisition and deployment strategies at Honda North America. 
He has spent 27 years at Honda in both engineering and human 
resource positions, with a focus on technical development. In 
true American fashion, he started as a manufacturing engineer 
in the welding department of the Marysville Auto Plant, which 
is just outside my district. He currently serves as co-chair of 
the Ohio Manufacturing Careers Council Image Committee, vice 
chairman of the Columbus City Schools STEM Industry Council, 
and is a member of several career and technical center advisory 
committees.
    Thank you for testifying today, Mr. McLemore.
    And last but not least, Dr. Betsey Stevenson. She is an 
associate professor with the University of Michigan, Gerald R. 
Ford School of Public Policy, and also with its Department of 
Economics. We Buckeyes promise not to hold that against you. 
Before that, she was a member of President Obama's Council of 
Economic Advisers. She also served as a chief economist at the 
Department of Labor from 2010 to 2011. Dr. Stevenson 
specializes in topics such as the impact of public policy on 
the labor market, women's experiences in the labor market, and 
the economic forces shaping the modern family.
    Dr. Stevenson, thank you for being here today. I know you 
just got here, so thank you for coming from the airport 
directly.
    We will begin with our panelist from my far left. You are 
recognized for 5 minutes.

STATEMENT OF DIANA FURCHTGOTT-ROTH, SENIOR FELLOW AND DIRECTOR 
        OF THE ECONOMICS21 PROGRAM, MANHATTAN INSTITUTE

    Ms. Furchtgott-Roth. Thank you very much, Mr. Chairman. 
Thank you very much, Ranking Member Heinrich. It is such a 
great pleasure to be here. Thank you very much, members, for 
coming to hear the testimony.
    As you heard, there is a big problem with job vacancies, 
with a mismatch between employers who want to find people to 
work, and yet we also have people sitting on the sidelines. I 
would like to just briefly in my oral testimony review five 
points: community colleges; streamlining benefits; removing 
constraints to economic growth, such as what the Federal 
Reserve is doing; tax policy; and regulatory policy.
    I know that Dr. Harrison is going to talk about community 
colleges, but I at least want to mention their very important 
role, how they can increase the earnings power and upward 
mobility of their students.
    I performed research using individual students in the State 
of Florida in 2009, showing that C students, students with a C 
average, performed much better when they went to community 
colleges and took a high-return degree. They were earning about 
$45,000 a year when they graduated, much more than C students 
who went to try to get a 4-year degree right away. However, 
community colleges are also a transfer point for people who 
want to get a 4-year degree. These results have been extended 
and confirmed by a study published by the Community College 
Research Center of Columbia University.
    To maximize students' opportunities, the American 
Association of Community Colleges has implemented a Pathways 
Project in 30 colleges to guide students toward high-return 
professions where they can get good jobs afterwards, steering 
them into degrees such as computer science and healthcare 
services. We call these fields high-return because there are 
high-paying jobs waiting for them when they graduate. So this 
is a very, very important component.
    Moving on to my next point about benefits, it is 
interesting to compare the United States and the United 
Kingdom, which since 2000, have seen an increasing divergence 
in their labor force participation rate. It used to be, in 
2000, that the United States had a higher labor force 
participation rate than Britain. Now, Britain has a higher 
labor force participation rate and a higher employment rate 
than the United States.
    What has been happening is that in the United States we 
have been raising our benefits, expanding eligibility for 
disability insurance, for food stamps, for other kinds of 
programs. The United Kingdom has been reducing its eligibility, 
and they have been steering people into work as a condition of 
continuing to get benefits. So in the United Kingdom, if you 
are offered a job, you have to take that job. In that way, more 
and more people are returning to the workforce, and the number 
of people on benefits has been declining.
    In 2016, 3.7 million people in the United Kingdom were on 
out-of-work benefits, compared to 5 million in 2011. In 
contrast, in the United States, about 60 percent of nonworking 
men are on Federal disability benefits. So we might want to 
take a look at what the United Kingdom is doing.
    What we are also interested in doing is reducing 
constraints on growth. If we look at tax policy and regulatory 
policy, they are providing constraints on growth here in the 
United States. Our corporate tax rate is way above those in 
OECD countries. It is 39 percent, compared with 25 percent, on 
average, for OECD countries. Canada has a 15 percent rate.
    If we could do one single thing to increase economic 
growth, it would be lowering the corporate tax rate and moving 
to a territorial system rather than a worldwide system, which 
would stop companies inverting and moving off to Canada and 
other countries, such as Ireland. So I would say that would be 
the most important thing that we could do.
    We also need to have regulatory reform, put in place cost-
benefit analysis for regulations, and make sure that these 
regulations have benefits that justify the costs. Right in the 
EPA's environmental impact analysis and it's regulatory impact 
analysis for it's carbon rule, it admitted that jobs were going 
to be lost because of these regulations, falling primarily on 
states such as Ohio. And we need to make sure that these 
benefits also are--there are good benefits and also that the 
costs are not geographically concentrated in certain high-
energy States.
    Thank you very much.
    [The prepared statement of Ms. Furchtgott-Roth appears in 
the Submissions for the Record on page 38.]
    Representative Tiberi. Thank you for your testimony.
    Dr. Harrison, you are recognized for 5 minutes.

   STATEMENT OF DAVID T. HARRISON, PRESIDENT, COLUMBUS STATE 
                       COMMUNITY COLLEGE

    Dr. Harrison. Chairman Tiberi, Ranking Member Heinrich, 
Vice Chair Lee, members of the Joint Economic Committee, thank 
you for the opportunity to speak with you today on this 
important topic.
    My name is David Harrison. I am president of Columbus State 
Community College, and we happen to be one of the 30 colleges 
nationally that are part of the American Association of 
Community Colleges Pathways cohort that my colleague just 
mentioned.
    I am pleased to be with you today to discuss the leadership 
role that community colleges can play in addressing job 
vacancies for employers and in providing people with pathways 
to successful careers.
    The gap between open jobs and qualified employees is 
widening, and the reasons are many. The Nation's workforce is 
becoming more diverse. We have overemphasized the bachelor's 
degree as the only path to success for young people, and our 
educational system has been slow to respond.
    You may be surprised to learn about today's college 
student. Three-quarters of them commute to class while 
balancing jobs and family responsibilities. They are first-
generation college students, adults in transition, and military 
veterans returning home. These are the students that are the 
solution to the vacancy problem, and we need to think 
differently about how to help them succeed.
    By overemphasizing the bachelor's degree, we have not 
served many young people well, as more than half reach the age 
of 25 without a postsecondary credential or an employable skill 
set. A technical credential is a better option for many of 
these students.
    Harvard University notes that jobs requiring an associate 
degree are growing at three times the rate as those requiring a 
bachelor's degree. Only a third of new jobs will require a 
bachelor's degree, with the rest requiring an associate degree 
or technical certificate.
    Filling these 6 million jobs is possible with the right 
combination of strategies, including elevating the associate 
degree to prepare more people for high-demand jobs and 
expanding regional public-private partnership between K-12, 
community colleges, and employers.
    I am pleased to share with you today promising practices we 
have developed in central Ohio, built on a strong culture of 
public-private partnerships. American Electric Power funds a 
program at Columbus State called Credits Count that enables us 
to prepare students for technical careers starting in middle 
school and take college courses while they are still in high 
school, leading to a technical credential.
    JPMorgan Chase selected Columbus State as one of nine 
international partners to implement their New Skills at Work 
initiative, creating grade 9 to 14 career pathways for students 
in central Ohio. And we have partnered with Honda of America to 
develop a talent pipeline of electromechanical engineering 
graduates to address an urgent need. You will hear more about 
this from our great partner, Scot McLemore, whose testimony 
follows mine.
    But we won't fill these 6 million jobs by focusing on young 
people alone. Demographics are not on our side. Many regions of 
the country, including Ohio, are projecting decreases in public 
elementary and secondary school enrollment. We must have 
policies that help military veterans and others in transition, 
as well as initiatives to address employment barriers due to 
transportation, childcare, and other factors. Employers who 
adopt fully inclusive employment practices are emerging as 
clear winners.
    Here again, public-private partnerships in central Ohio are 
producing results. The Ohio insurance industry partnered with 
several colleges, including Columbus State, to develop an 
educational pathway that mirrors the professional career path 
in the industry, with a specific focus on adult students. This 
effort has helped Nationwide Insurance hire more than 1,000 
Armed Forces veterans, with the goal of hiring 1,000 more.
    The Federal Government can support these regional efforts 
in three key ways. First, expand programs that are working. The 
National Science Foundation's Advanced Technological Education 
program is an important source of venture capital for community 
colleges to develop programs in partnership with employers. At 
Columbus State, our NSF grants are focused in advanced 
manufacturing, cybersecurity, data analytics, and logistics 
technology, all high-growth fields requiring specialized 
skills.
    Second, support programs that help adults in transition. 
The bill proposed by Senators Portman and Kaine to expand Pell 
grant eligibility to cover high-quality, short-term job 
training for low-income students could go a long way to help 
adult students prepare for the high-performance workplace.
    And finally, look to community colleges as the regional 
leader in convening effective partnerships with employers and 
other local groups to fill jobs, launch careers, and expand 
economic growth. Community colleges are purpose-built to 
address this workforce issue. Most of us are already doing this 
work, and we stand ready to do more.
    Thank you for allowing me to be part of this conversation, 
and I look forward to your questions.
    [The prepared statement of Dr. Harrison appears in the 
Submissions for the Record on page 62.]
    Representative Tiberi. Thank you.
    Mr. McLemore, you are recognized for 5 minutes.

 STATEMENT OF SCOT McLEMORE, TECHNICAL WORKFORCE DEVELOPMENT, 
               MANAGER, HONDA NORTH AMERICA, INC.

    Mr. McLemore. Thank you, Chairman Tiberi, Ranking Member 
Heinrich, and the members of the committee for hosting this 
hearing on the critical issue of workforce participation and 
workforce development.
    My name is Scot McLemore, and I serve as the manager of 
talent acquisition at Honda North America. In my role at Honda, 
I work to develop strategies to help address workforce 
challenges. Honda has more than 70 facilities in the United 
States, including 12 manufacturing plants that produce a wide 
range of products, including cars, trucks, light business jets, 
power equipment, and power sports products. More than 73 
percent of Honda's 30,000 U.S. associates work in manufacturing 
roles. In addition to our direct employment, Honda works with 
more than 600 U.S. suppliers, who employ tens of thousands of 
workers nationwide.
    Manufacturing jobs are high-paying jobs with good benefits, 
which should be highly attractive in our current economic 
climate. However, today, our ability to recruit and hire a 
qualified sustainable workforce is limited by two key factors. 
One, a shortage of young people interested in entering 
manufacturing; and two, a lack of prospective employees who 
have the essential skills needed to be successful in a 
manufacturing job.
    Modern manufacturing equipment and processes involve an 
integration of pneumatic, hydraulic, mechanical and computer- 
networked components. Too often, individuals do not possess the 
problem-solving ability, technical training, computer 
knowledge, or math skills needed to compete in the 21st century 
workforce.
    In order to address these problems, Honda has developed a 
number of educational initiatives and workforce training 
programs, which aim to build enthusiasm for future careers in 
manufacturing and provide potential employees with the 
necessary skills to compete in the modern manufacturing 
economy. Many of our programs are designed as public-private 
partnerships, including partnerships with academic 
institutions, local governments, and community organizations. 
While I will talk briefly about some of our programs, more 
information about them can be found in my written testimony.
    Honda believes that the first step in developing a 
technical workforce is to create excitement for manufacturing 
jobs through early engagement with students, parents, and 
educators. Beginning with middle school, Honda has partnered 
with several organizations to develop initiatives aimed at 
building interest in manufacturing and developing the critical 
thinking skills that are necessary to succeed in manufacturing. 
These initiatives include: a unique educational video game for 
classroom use; mobile labs featuring robotics; and STEM-based 
summer programs. However, a bridge must be formed between 
creating interest in manufacturing and actually preparing 
individuals to have the analytical and technical skills to 
operate equipment found on today's manufacturing floor.
    As such, we work with high schools and community colleges 
to develop curriculum, supplement classroom lessons with plant 
visits, provide mentorships and scholarships. Most importantly, 
we have established programs with community colleges that 
provide students with the opportunity to learn the technical 
skills necessary for a manufacturing career while 
simultaneously receiving their degree.
    An example of this is our partnership we have with Columbus 
State Community College, which is designed so students can work 
at Honda 3 days a week and go to school 2 days a week. This 
program gives students the chance to build technical skills 
while earning their degrees, allowing students a way to 
graduate debt free. Upon graduation, students may be offered a 
full-time position with the company. We have similar internship 
efforts in other States and communities where we have 
manufacturing operations in the United States.
    Because the technology in the automotive industry is 
constantly changing, we make a commitment to ensure that 
education does not stop once associates are hired. Honda 
remains committed to ensuring our existing workforce has the 
skills necessary to be part of our exciting future. To that 
end, we have established technical training centers near some 
of our manufacturing plants to help our associates stay current 
with technology and grow professionally.
    Going forward, we strongly believe that Honda's future and 
the future of manufacturing in the United States rests in the 
hands of programs like the ones I have outlined. However, there 
must be a significant increase and expansion of these 
collaborative efforts to develop a 21st century workforce. 
Additionally, continued support and improved access for STEM 
education is critical to ensuring that our future workforce has 
the skills to compete in modern manufacturing.
    One step Congress can take immediately is to reauthorize 
the Carl D. Perkins Career and Technical Education Act, which 
recently passed the House of Representatives. The current 
version of the bill will help encourage more collaboration 
between stakeholders to ensure students have a pathway to a 
relevant and meaningful technical career. Honda stands ready to 
work with Congress to help solve the critical workforce issues 
that stifle the full economic potential of our country.
    I am happy to answer any questions you may have. Thank you.
    [The prepared statement of Mr. McLemore appears in the 
Submissions for the Record on page 71.]
    Representative Tiberi. Thank you.
    Dr. Stevenson, you are recognized for 5 minutes.

 STATEMENT OF BETSEY STEVENSON, ASSOCIATE PROFESSOR OF PUBLIC 
     POLICY AT THE GERALD R. FORD SCHOOL OF PUBLIC POLICY, 
                     UNIVERSITY OF MICHIGAN

    Dr. Stevenson. Thank you, Chairman Tiberi and Ranking 
Member Heinrich. It is a pleasure to be here, and I want to 
thank you for the invitation to testify today about the state 
of the job market.
    I want to start by placing the record number of job 
openings in the context of a strengthening labor market and an 
increase in dynamism. Businesses have continued to hire in 
large numbers, just again this June surpassing expectations. 
And over the past 6 years, we have seen the longest most 
persistent streak of job growth on record.
    All this growth is leading to more job openings, and 
perhaps more importantly, it is also leading more workers to 
quit their jobs. You might think that doesn't sound like a good 
thing, but it is actually a great thing when workers feel 
confident enough to leave their jobs in order to seek out 
better opportunities. In fact, job changes are essential for 
workers to climb the ladder to better and higher paying 
opportunities. A return to a healthy level of churn is 
incredibly important and, frankly, we are not quite there yet.
    One of the most profound challenges our labor market faces 
is lackluster wage growth, so I want to spend most of my time 
talking about that. Wages provide a clear market-based signal 
of demand for skills, and one of the clearest signals is the 
high wages of college-educated workers compared to those with 
less education. That is not to downplay other forms of 
training, but I think it is essential to start by understanding 
that the earnings gap between college graduates and those 
without a college degree has grown steadily for decades and in 
recent years has been at an all-time high. The benefits of a 4-
year degree are also seen in substantially lower unemployment 
rates and higher labor force participation rates, even compared 
to people with a 2-year degree.
    In addition, while there is concern about student loans, 
very clear research shows that most of the increase in student 
loan defaults is associated with borrowers at for-profit 
schools and other 2-year institutions associated with weak 
employment outcomes. These findings underscore the importance 
of funding successful community college programs that are 
clearly linked to employment outcomes.
    One of the largest challenges the labor force faces in 
developing the skills of workers is ensuring that students from 
across the income spectrum have access to successfully and 
affordably complete a 4-year degree, because that is where the 
strongest demand is still being seen.
    In competitive markets, a skill shortage should lead 
businesses to pay higher wages. And yet researchers have 
consistently failed to find evidence of employers bidding up 
wages of workers in specific occupations or geographic areas, 
even when there is a big gap between the number of openings and 
the number of hires, and that represents a real puzzle. I think 
the biggest place we see this is in healthcare, where there are 
a lot of openings, not a lot of hires, but the wages aren't 
picking up.
    Many economists have pointed to slowing productivity growth 
as one of the sources of the slow wage growth, but it is 
important to recognize that, even if we were to solve that 
problem, in recent decades, there has been a disconnect between 
productivity growth and wage growth that we need to address.
    Some of the things that we are seeing is a decline in 
unionization, reduced worker bargaining power, and reduced 
worker mobility, and an increase in businesses engaging in 
clear anticompetitive labor market policies, including 
forbidding the sharing of pay information and requiring 
noncompete clauses, policies that are designed to restrict the 
ability of workers to make those changes that allow them to bid 
up their wages as they become more productive. Congress should 
seek to make the labor market as fair as possible by penalizing 
businesses that engage in such anticompetitive practices.
    Additionally, policies like updated overtime regulations, 
robust minimum wage, enforcing workplace protections are all 
key areas that are important to raise wages.
    Let me be clear, the current pace of job growth is 
unsustainable unless more workers elect to join the labor 
force, and without higher wages, that is very unlikely to 
happen.
    So let me conclude by saying that there is something else 
policymakers can do beyond training, which is provide stronger 
infrastructure to support jobs. Today's workers, particularly 
lower wage workers, face challenges in getting to work without 
adequate public transportation, face challenges finding care 
for their children without adequate affordable childcare, and 
too often lose their jobs or are forced to quit when they need 
time off to care for a sick family member or their own illness.
    Better infrastructure--in the form of affordable childcare, 
paid family leave, and better public transportation--since it's 
better infrastructure to support work, such as affordable 
childcare, etcetera to support work would clearly help attract 
more men and women to the labor force. Research has shown 
clearly that such policies would boost women's labor force 
participation.
    Additionally, recent research has shown that roughly half 
of the drop in male labor force participation is due to men 
cycling in and out of the labor force. So making it easier for 
men and women to consistently hold onto a job will boost labor 
supply.
    Let me end by taking a moment to note some cultural changes 
that are going on with our labor market, because I know this 
committee is particularly interested in that. Many of our 
declining sectors are in traditionally male occupations, while 
traditionally female or more gender-mixed occupations are 
growing. These changes are going to require that we not only 
provide training for workers to successfully enter new 
occupations, but that we rethink how we provide that training 
and how we conceive those jobs so that there is greater 
diversity for men and women to enter the jobs that are going to 
offer them the highest pay, regardless of their cultural 
connotations.
    Thank you.
    [The prepared statement of Dr. Stevenson appears in the 
Submissions for the Record on page 74.]
    Representative Tiberi. Thank you. Thank you all for your 
very well-thought-out testimony.
    Dr. Harrison and Mr. McLemore, last month, this committee 
held a hearing on the opioid crisis. Ohio, and New Mexico are 
two States that have been hit hard by that crisis. One of the 
things that I hear from employers in central Ohio regarding 
that is that they have job openings, but folks can't pass a 
drug test.
    So anything you can share with us on your experiences with 
respect to that, and are there approaches that we can take to 
address such a problem?
    Mr. McLemore. Thank you, Mr. Chairman. That is a very 
important question and concern.
    I think for employers across the U.S., including 
manufacturing obviously. Based on my experience, Honda has seen 
some impact from the opioid abuse situation, but compared to 
other employers within the State and across the U.S., it hasn't 
had a very big impact currently.
    I guess in thinking about that situation, though, my 
concern is also with those that are not yet employed, meaning 
the youth of America, which we don't know the full impact of 
that. So when thinking about that question, one of the things 
that I want to be aware of and take back to Honda, and work 
with our partners on, is understanding that situation and maybe 
incorporating those concepts with soft skill training as we go 
out to the high schools and middle schools, making sure that 
young people are aware of the impact of drug abuse and how it 
could negatively impact their career. But currently, we are not 
seeing as much of an impact as some other employers.
    Representative Tiberi. Dr. Harrison.
    Dr. Harrison. At the college, we know that our student body 
reflects the overall population, and we are in the early stages 
of trying to build this in as a career readiness component of 
our work so that students really are understanding what is 
going to be expected in the workforce.
    It is interesting the conversations that I have had with 
employers, because they are struggling with it and are 
addressing it in different ways. So recently, I was in a 
conversation with two different CEOs. One was talking about the 
fact that they were working so hard to find new people they 
were having to relax their drug policies; and the other CEO was 
going in exactly the opposite direction, in terms of trying to 
increase the scrutiny and tests even more.
    As you know, Mr. Chairman, in our State, our Governor has 
really made this a priority in the State budget, and it is 
something that we are really trying to wrap our arms around, 
because it is a statewide issue that is certainly hurting our 
State's economy, but also hurting families. We also know, with 
our work at the college, is that it really is a multiplying 
effect, in that if one family member is affected, it really 
does affect the entire family. And that infrastructure is 
something that we really do pay attention to.
    Representative Tiberi. Thank you.
    Mr. McLemore, the comment in your testimony that the 
factory room floor or the version of the factory room floor is 
outdated. And I think of when my dad worked in a factory, and 
that image in my mind versus when I received my first tour of 
Honda of America, are quite different.
    How do we, or how do you, as someone in that industry, 
begin to try to tell kids who from a very young age, you got to 
get a 4-year degree, you got to get a 4-year degree, you got to 
get a 4-year degree? I am thinking of a constituent I spoke to 
yesterday, a mom whose daughter graduated from an Ohio college, 
a private college in Ohio, 4 years, well into the six figures, 
and she got a job as a public school teacher. A good job, she 
wants to do it, but the cost versus the employment, very 
different. Yet you have jobs that don't require a 4-year 
degree. There are other factory jobs that are much different.
    How do you begin, or how do we begin, to help educate 
America's youth that there are good jobs that you don't need to 
get a 4-year degree?
    Mr. McLemore. Yes, Mr. Chairman, that is a great question. 
I think it is a big challenge for employers and manufacturers, 
and, the answer to that question I think really is in the model 
that we have created with Columbus State.
    So what you may find, I believe, in my written testimony 
that I wasn't able to describe, is our ability to create a line 
of sight for parents and students in middle school, starting 
with our manufacturing game, that gives them a glimpse of and 
some experience of what it is like to be in a modern 
manufacturing environment. So this is a start, which we think 
is very innovative.
    But I think in addition to that, in our partnership with 
Columbus State, we go together, as an example, to a suburban 
high school near Columbus and in the Columbus School District 
and talk to parents and students directly about manufacturing 
careers, about the pathway, but also, we talk about the 
opportunity to continue that education through tuition 
reimbursement and partnerships that Columbus State may have 
with the Ohio State University, Miami, and other 4-year 
institutions in the State of Ohio.
    Once students, and specifically parents and many times the 
mothers of those children, understand those opportunities, it 
is like a light bulb going off, because they have no 
understanding that these careers are available just down the 
street. If I could add, what is quite interesting, the work 
study students that we have at Columbus State that we have made 
full-time offers to, seven of the eight of those students did 
not know Honda had those manufacturing careers before they 
started at Columbus State in that program.
    So our challenge is selling manufacturing. So we have 
partnered with the Ohio Manufacturers' Association, Jobs Ohio, 
and the Office of Workforce Transformation, to create a 
marketing strategy for the State of Ohio for all manufacturers. 
We have developed a toolkit, allowing them to go into schools 
and sell manufacturing. It is about changing the conversation.
    Representative Tiberi. That is pretty exciting.
    I am going to yield to our ranking member.
    Senator Heinrich. Thank you, Chairman.
    Dr. Stevenson, we have heard a lot about the critical role 
that skills play in workforce development, but it is certainly 
not the only challenge facing workers today. You touched on it 
a little bit in your testimony, but what are some of the other 
major challenges that we need to be thinking about to make sure 
that those workers can actually have access to that skills 
training, that education, and get on the path to higher 
productivity jobs?
    Dr. Stevenson. Thank you for that question. And I do think 
that you mentioned in your opening statement the need for an 
all-of-the-above strategy. We see that there are big gaps 
between children's start in life, and some of that starts with 
early access to preschool. It is very hard for kids to catch up 
when they have these very big gaps from the beginning. And it 
turns out that supporting early childhood education doesn't 
just support the children, but it allows the parents to stay 
attached to the labor force.
    What we see is that the more people stay attached to the 
labor force and have continuous employment, the better they are 
able to build a career path and get those increases in wages. 
Gaps out of the labor force are bad for people's wage growth. 
And there are lots of things that lead to gaps. Not having 
adequate paid family leave leads to gaps. And we have seen 
evidence of that across other countries. We have seen it in the 
United States. When we have had States like California pass 
paid family leave programs, you see more continuous employment, 
particularly of young moms.
    And as I mentioned in my testimony, I think some of the 
very compelling research coming out about young men is that 
they are cycling in and out of the labor force. They go, they 
get a job, but they don't last very long. Then they take some 
time out. Then they run out of money and they go back and get a 
job. But that doesn't lead to a pathway in which they are 
building a set of skills that are going to generate jobs. And 
some of that is due, you know, to the problems with drug use. 
Some of it is due to criminal justice problems. But there are 
lots of reasons in which workers don't feel that they have 
access to an upward mobility.
    Senator Heinrich. You end up with a series of jobs, not a 
career path.
    Dr. Stevenson. Exactly. And I really want to emphasize how 
important workers seeing a career path and having a progress 
narrative is, a progress path where they see that if they 
continue to diligently work, they are going to get a raise. 
There are so many workers today who their real wages are no 
different than they might have been 20 years ago. And that does 
not create the incentives for workers to adopt the skills that 
we need in order for them to build greater productivity.
    Senator Heinrich. Dr. Harrison, I want to jump to you real 
quick. What do we need to do--and I assume you have some 
partnerships, or I hope you do, with high schools as well--to 
make sure that they see that early on, to know what some of 
those paths are and what some of those opportunities are?
    And then I also want to touch on the issue of, in talking 
to people who are struggling in the labor force, it seems to me 
that the worst of all possible worlds--and I have run across 
this in many cases--are the students who end up with a 
substantial debt burden from their college experience, but not 
the degree or the skill sets to actually be able to do 
something about that debt and their earning power to put that 
behind them.
    What should we be doing to make sure that, you know, we 
avoid that scenario with your students or other students across 
the country?
    Dr. Harrison. Thank you, Ranking Member Heinrich.
    First, with regard to your question on high schools, we are 
in 140 high schools in 60 districts in our region and have 
actually almost 5,000 high school students taking college 
coursework at any one time. One of the catalytic programs we 
have had has actually been funded by the U.S. Department of 
Education, their Investing in Innovation program (i3). We are 
the only community college in the country that was selected 
that is allowing us to work with seven districts with a high 
percentage of low-income students to really model and build in 
these kind of career paths, like we are doing--like we are 
doing with Honda.
    The disconnect with regard to the bachelor's degree holder 
that has taken on a lot of debt and isn't making enough money 
to service that debt is something we see all the time. We have 
got more students at Columbus State with bachelor's degrees and 
even advanced degrees than we have ever had, because they 
haven't been able to get a high-earning job based on the 
bachelor's degree that they have.
    You all know the data, I am sure, as well or better than I 
do, but the average bachelor's degree holder graduates with 
$30,000 or more in debt. It takes them over 20 years to pay it 
back. This is a generational kind of thing. So really helping 
students and families understand that they do have options is 
something that we are working hard on.
    We have got a great complement of universities in central 
Ohio, certainly led by Ohio State University, and are really 
promoting the 2 + 2 pathway to bachelor's degree in a very 
public way, where students earn their freshman and sophomore 
year of the associate degree at Columbus State and then are 
guaranteed admission to Ohio State and other university 
partners, saving tens of thousands of dollars on the bachelor's 
degree.
    The other thing that Scot touched on--and I do want to call 
out really the leadership that Honda has provided, and Scot 
specifically, in terms of elevating these career pathways, and 
not just for the benefit of Honda but for manufacturing 
generally. But if you do the math for the students in the co-op 
program that he is talking about, I will call out one student 
specifically, Anton, who was in I think our first class, a son 
of Filipino immigrants, started in our co-op program making $18 
an hour while still in high school, graduated with his 
associate degree at the age of 19, walked in--I shouldn't say 
walked in, earned a $60,000-a-year job at Honda, and now I 
think is in a bachelor's degree program with full tuition 
reimbursement paid by Honda. So he is going to graduate with 
his bachelor's degree in his early 20s, not only debt-free, but 
he has been making money since he was 18 from Honda. That is 
replicable, and that is something that we think is scaleable.
    Senator Heinrich. Thank you very much.
    Representative Tiberi. Good question.
    Representative Schweikert, you are recognized for 5 
minutes.
    Representative Schweikert. Thank you, Mr. Chairman.
    And this is one of those, I have a fixation on this 
particular subject area, so please forgive me if I am slightly 
disharmonious, because we all have this habit of speaking our 
own book, our own life experiences, our own area of specialty, 
and I fear missing what many of us who are fixated on the 
actual demographics are seeing.
    So I would like to just run through a number of things. Can 
we actually do one big step backwards away from antidotals and 
actually first some discussion on what we see in the labor 
force participation numbers for typically some of the 
demographics in the number of our population that if it were 
post-1996 welfare reform, for that 10 years would have been 
actually in participation in the labor force and today are not. 
And we all screw up your name. Is it Furchtgott-Roth?
    Ms. Furchtgott-Roth. Furchtgott-Roth. You should just say 
Diana.
    Representative Schweikert. Furchtgott-Roth. You were the 
only one who actually mentioned some of the underlying data. 
First off, let's actually just do backwards something you did 
mention.
    Sixty percent of males who are not in the labor force today 
are on----
    Ms. Furchtgott-Roth. Are on some kind of disability 
benefits.
    Representative Schweikert [continuing]. Disability or a 
social entitlement program right now.
    Ms. Furchtgott-Roth. Yes. The point is that these have been 
expanded. They were expanded during the Great Recession, and 
then this expansion has stayed rather than being ratcheted 
back. So our labor force participation rate right now is 62.8 
percent, and it has been around 66, 67 percent in the past. And 
some people say this is because older workers are retiring, the 
baby boomer's retiring. But really, the 55 and over labor force 
participation rate is rising. It is the 25 to 54 that we are 
concerned about.
    Representative Schweikert. You actually beat me to 
something we have seen in some of the fascinating data is 
actually older actually choosing to stay in the labor force 
much longer.
    Ms. Furchtgott-Roth. Yes.
    Representative Schweikert. Some of that may be savings and 
retirement and retirement lifestyle aspects.
    If I wanted to find literature to actually look at the 
post-1996 welfare reform labor force participation velocity of 
particularly my population moving from let's call it lower 
tiers into true middle class, where would you send me?
    Ms. Furchtgott-Roth. Well, there has been a lot of very 
interesting work on mobility. Scott Winship, who works with the 
Joint Economic Committee for Senator Lee, has done some of the 
best work on that. And so I would say you should go to Scott 
Winship and just find his latest articles. He is right on your 
staff. He is one of the leading experts in the United States on 
mobility and inequality and these different kinds of issues. He 
has written extensively on it.
    Representative Schweikert. Thank you. And my fixation to 
particularly staff and everything else is that looking for a 
more holistic approach, because my fear is this constant saying 
I am going to do a job training program here, I am going to do 
this here or do this here doesn't help me when I am looking at 
just shy of 100 million of my brothers and sisters in the 
Nation, what percentage of that should probably still be 
participating.
    Dr. Harrison, in a number of meetings I have had--now, this 
is actually more for the high-tech community. I had a 
fascinating discussion a couple months ago with I think it was 
Oracle, who are saying they are tired of hiring 4-year computer 
science degrees and then spending the next couple of years 
getting them an Oracle certificate, whether that be Oracle or 
SaaS.
    Are we in a world where it is time to have a revolution in 
the accreditation world, where I can do my AA, I can do my 
part, and the accreditation world says, I am going to take a 
little of this, a little of this, a little of that, and 
actually start doing things that are actually part of what 
labor markets demand?
    Dr. Harrison. Well, I think that is possible. I think it 
would have to be employer-driven. I think that is the, at least 
at the community college level, kind of the barometer that we 
would use. And the ability for employers to determine----
    Representative Schweikert. But in your world as a community 
college, are you allowed to produce programs and say, this 
doesn't meet our accreditation standards, but Honda really 
wants to hire someone who has done these classes? I mean, it is 
almost more community college of coder camps or learning to run 
CNC equipment or other things.
    Dr. Harrison. We are allowed and, in fact, it is becoming 
more commonplace. Our State just approved a short-term 
certificate pathway that is going to allow for more of these 
kinds of things. The computer scientists that Oracle was 
talking about, they are coming to Columbus State to learn 
Amazon web services, cloud technology, or Apple Swift 
programming.
    Representative Schweikert. Okay. Because that is part of my 
holistic approach is I think it is a revolution, everything 
from what we consider to be education anymore down to the job 
skills to--we have to actually also start to explore if you 
want to see why healthcare doesn't have wage inflation, how do 
we compensate healthcare? Well, at CMS, you know, we 
functionally have government control in pricing.
    I mean, there is a series of these things that we throw out 
in discussion, but if you drill down into them, we are at fault 
in the way we build sort of this regulatory mechanics. So I 
know I am way over time, but it is a powerful discussion for 
our society.
    Representative Tiberi. Senator Peters, you are recognized.
    Senator Peters. Thank you, Mr. Chairman.
    And I think that those are interesting points, and I am 
going to explore some of those a little bit further if I have 
time as far as looking at some new paradigms as to how we 
provide education, which I think is interesting.
    But I am also interested in data. And as we were talking 
about the openings, the job openings that are available, I 
would like to have a better sense of where those job openings 
are. There has been a discussion about manufacturing. 
Certainly, I hear that as I travel around Michigan. 
Manufacturers are having similar issues as you are having in 
Ohio; it is no different in Michigan.
    But when I looked at some Bureau of Labor data, it seems in 
terms of openings, it is in areas like food services. It is in 
hospitalities, which are far above the average of openings. 
Many, many more openings in those jobs tend to be lower wage 
jobs.
    Dr. Stevenson, I think you mentioned some of that in your 
testimony. Where is the data? Where are most of the job 
openings out there? What sorts of skills? What sort of job 
classifications? What I saw are healthcare, social assistance, 
day-care, food services. Is that accurate? Where's the data?
    Dr. Stevenson. So I think it is really important that we 
distinguish between job openings and job growth, because we do 
have a lot of underlying churn. So there will be a lot of 
hiring, millions of jobs hired in manufacturing, even if as a 
sector manufacturing is declining.
    So we do have to think about this, because if manufacturing 
as a sector is declining, it means it is like a game of musical 
chairs where they keep pulling out some of the chairs, but we 
are still going to have a whole bunch of new workers going into 
that field. And I think that that highlights the need for us to 
provide training that is adaptable and movable and is general 
enough that students or graduates, workers are able to move to 
other sectors if they find themselves short of one of those 
seats when they are working in a declining sector.
    The sectors that are growing are in the service sector. In 
general, the goods-producing sector is in decline, and 
manufacturing is part of that. And this is a longer run trend. 
And where we are seeing growth is education and health services 
and business and professional services.
    And that is some of the reason why you see these strong 
returns to college education, but it is also just a shift in 
global society where we think about where is the U.S. really 
strong? And we are really strong in services. We export a lot 
of business and professional services. And I think we will 
continue to see job growth in those areas, even though we are 
going to continue to see hiring in sectors that are not growing 
as quickly.
    Senator Peters. The other area that I find interesting, and 
we heard some comments earlier about employers having to do 
some training--and certainly, Mr. McLemore, you have talked 
about that as well--is that when I came out of college, I did 
go through a very extensive training program that the company 
provided for me. And yet we have seen what I think is a 
troubling trend that more and more employer-paid training is 
going down. It used to be, I think in 1996, about one in five 
companies--one in five employees that came in had some sort of 
employer training. Now, that number is extremely low and 
employers are just expecting folks to be trained when they walk 
in the door, instead of investing in their employees. That is 
not what it was like when I came out of college.
    Is that an accurate reflection? Are those numbers, indeed, 
accurate? You are shaking your head, Dr. Stevenson.
    Dr. Stevenson. Yes, that is accurate and, frankly, it is 
quite puzzling, because we see workers--we have seen a decline 
in mobility. So workers are spending more time with their 
employers, and yet their employers are investing less in them. 
And I don't have a good explanation for why that is, but it is 
certainly what we are seeing.
    Senator Peters. So you are seeing less employer investment 
in employees, and you are seeing wages that are not going up, 
even though there are shortages. That doesn't seem to comport 
with classical economics, does it?
    Dr. Stevenson. It does not.
    Senator Peters. Anybody else have a comment on why is there 
disconnect? There are shortages of skills. Employers are not 
investing in skills, and they are not paying more to attract 
folks to come into their businesses. Any other ideas?
    Dr. Harrison.
    Dr. Harrison. Well, the only thing I would add to that is 
we work with a lot of small businesses who don't necessarily 
have the means to train their employees in the way that you are 
talking about, or employees are true multitaskers. So what we 
are working on with our chamber of commerce and others is to 
figure out ways to pool that so that that becomes a more 
collective approach, so that the employer is benefiting, but we 
are also able to really build the skill set of our region.
    Senator Peters. Let me add in the remaining time, since it 
is getting low here. One area that does train folks are labor 
unions, particularly in the building trades. They have very 
extensive apprenticeship programs. I have toured many of them 
in Michigan. Complete training. Students can come in, get 
basically free training, and get a great job afterwards. And 
yet we have seen a declining number of union jobs.
    Is that related to--Dr. Stevenson, you are shaking your 
head again as well. With declining labor and apprenticeship 
programs, to me that is a significant problem.
    Dr. Stevenson. That is a significant problem. With 
declining unionization, declining union investment in training, 
somebody has to pick up the slack. And that is either going to 
be businesses, and they haven't been doing that, or it is going 
to be government.
    Senator Peters. Great. Thank you.
    Representative Tiberi. Thank you.
    Mr. Rooney, you are recognized for 5 minutes.
    Representative Rooney. I don't have a clock, so let me know 
if I----I would like to ask Ms. Furchtgott-Roth a question, 
since you referenced the labor force participation rate. And I 
have been mulling over this study from Nick Eberstadt over at 
AEI, which is pretty chilling, and I would like to introduce it 
to the record, if I might.
    Representative Tiberi. Without objection.
    [The article titled ``Our Miserable 21st Century'' appears 
in the Submissions for the Record on page 78.]
    Representative Rooney. But he starts out by saying: By the 
criteria of adult work rates, employment conditions in America 
remain remarkably bleak. And he goes on to cite all kinds of 
horrendous things. But a couple of them that stood out in the 
nature of the argument or the comment that three 25- to 55-
year-old males for each 25- to 55-year-old unemployed male are 
sitting out of the workforce and living off of benefits. That 
is 5 million people since 2000. And half of these sitting out 
of the workplace, some 7 million take daily pain meds. Half are 
on Medicaid. And there are also some statistics from Alan 
Krueger at the Council of Economic Advisers, after you were 
there, about that a majority of these people were surveyed that 
they, quote, ``don't do civil society,'' unquote.
    So I am not an expert in this and you are, and I would like 
to ask you, what do you see we can do to kind of draw these 
people out and into the workforce using some of the tools that 
you describe in your testimony?
    Ms. Furchtgott-Roth. Well, it used to be that if you were 
an able-bodied adult, you couldn't get benefits. You had to 
work. You couldn't get health insurance; you had to work for 
that. And this has changed in the United States over the past 
10 years, and the results are what we have seen, as Nick 
Eberstadt has described.
    There have been other people who have written on this. 
Casey Mulligan at the University of Chicago in his book ``The 
Redistribution Recession,'' and also his book on the effects of 
the Affordable Care Act on labor force participation.
    It is clear that if you get benefits without having to 
work, then fewer people are going to work. It is not something 
that an economist needs to do a study to analyze. Anyone can 
understand it, although many economists have measured this 
phenomenon.
    As well as the services, there are also a lot more job 
openings than hires in information, financial activities, 
finance and insurance, real estate rental. There are 
opportunities out there. I would say that employers don't 
necessarily do formal training, but they do a lot of on-the-job 
training. When someone comes, they show them the ropes. Many 
employers are saying that they cannot find people who come and 
who want to do these jobs.
    There was an experiment of sorts in North Carolina when 
Governor McCrory in 2013 said, we can't find enough welders. He 
cut back uninsurance benefits dramatically, to 19 weeks from 
about 63 weeks. And all of a sudden a lot of jobs started 
getting created in North Carolina. Employment went up; 
unemployment went down.
    Representative Rooney. Thank you.
    Dr. Stevenson, maybe for you, but also it would be great 
for you too, is in the concept of the workforce participation 
and the testimony you put about there that business can do 
more. There has been a lot of reading. I just read this, but 
``Poor No More,'' about the argument that instead of workforce 
training and preamble activities to work, you just get someone 
in there and put them to work. And between OJT and 
apprenticeship and things like that, they will gradually get 
with the program, and then maybe you supplant it later with 
some training to advance their skills.
    Can you comment on that?
    Dr. Stevenson. Are you asking if I think it is a good idea 
to put people into jobs before they are prepared so that they 
can learn on the job?
    Representative Rooney. That is what I am asking.
    Dr. Stevenson. You know, I think people have different ways 
of learning. There is obviously an importance of having a 
certain basic skill. And, you know, I advise my students that, 
to the extent they can, they should concentrate on building 
their skills, because they will be more productive once the 
skills are built.
    You know, I would like to emphasize that, you know, a 
century ago, countries mocked the United States for how much we 
were sending people to high school. They said that was a waste 
and we should put people into jobs and they should learn on the 
job. And what we did was set ourselves up for the most 
impressive growth in the world last century, because we were 
willing to educate people. And I think we should be thinking 
about education today in the same way that we thought about it 
when we were expanding high school to the masses.
    We need to make sure that people have the opportunities to 
develop skills so that they can productively contribute. Lots 
of people learn really good by doing, and so--learn really well 
by doing, and I think that, you know, it is a great idea to 
build out those opportunities. But, you know, I wouldn't say 
that we should just have students, or young people, dumping 
them into jobs without giving them adequate training.
    Ms. Furchtgott-Roth. On the other hand, the skills that you 
get when you graduate from high school now are not necessarily 
the skills that people had 50 years ago, if you look at the 
tests that people passed 50 or 60 years ago compared with the 
tests they pass now. There are some parts of the country where 
the graduation rate is only 55 percent, and we need to do more 
to let those students have alternatives, such as charter 
schools or school choice, allow the tax money to follow the 
child so that parents have the ability to choose a better 
school for them and so they do get those skills, because with 
the math skills and the reading skills, you can start in a lot 
of employers with a lot of jobs and work your way up. But 
without those basic math and reading and writing skills, it is 
difficult.
    Representative Rooney. Thank you. Good discussion.
    Representative Tiberi. Senator Hassan, you are recognized 
for 5 minutes.
    Senator Hassan. Thank you very much, Mr. Chair and Ranking 
Member Heinrich, for this hearing. And to the panel, thank you 
all for being here this morning.
    I know you have all been talking about the relatively low 
national unemployment rate, and it is clear that there is no 
easy solution to addressing a record high number of unfilled 
jobs reported from the Bureau of Labor and Statistics as 5.7 
million openings in May.
    We all can agree we need more participation in the labor 
market and a more skilled workforce in order to be successful 
in changing our economy. As Governor of New Hampshire, now 
Senator, it is the number one thing I hear about from 
businesspeople and employers.
    One way to do this is to identify the individuals who have 
fallen out of the labor workforce that Congressman Rooney was 
just pointing to and to assist them with additional supports so 
that they can gain the skills necessary to fill vital job 
openings, because, again, I hear from employers that the people 
who do show up often don't have the high-tech skills that we 
need.
    In New Hampshire, programs like Families in Transition and 
Goodwill have had success looking at the whole person and 
providing wraparound services to help people navigate 
homelessness, addressing their transportation needs, and 
securing childcare, in addition to job training. These programs 
in New Hampshire have demonstrated that at-risk individuals, 
when given the right supports, are capable of finding stable, 
good-paying employment, and working their way into the middle 
class.
    So do you agree that these types of programs assist in 
expanding our labor markets? And do any of you have suggestions 
on how to scale and implement these types of services 
nationwide?
    And, Dr. Stevenson, I would like to start with you.
    Dr. Stevenson. Yes. So I strongly believe that these types 
of family support programs are essential to increasing the 
labor force. And to put some data on it, research has shown 
that female labor force participation in the United States 
would be 6 percentage points higher if we had the kind of 
access to childcare and paid family leave that other countries 
have. So we know that our lack of this type of support is 
actually holding back female labor force participation. We also 
know that the lack of support leads to long-term negative 
consequences as well.
    We are also learning more about people's cognitive 
limitations. So that sounds almost like a difficult thing to 
talk about, but if you spend your time trying to figure out how 
you are going to put food on the table, you have got less left 
to give your employer. And so by making sure that we remove 
some of the burdens that people have, struggling to figure out 
how are they going to get their kids cared for while they are 
at work, what are they going to do when their kid is throwing 
up at school, when we reduce some of those cognitive burdens, 
they have more to give their employer, and that leads to higher 
productivity and better outcomes.
    And we know what needs to be done for that. We know that we 
need more government support for paid family leave and for 
childcare.
    Senator Hassan. Thank you.
    Any of the other panelists like to address that?
    Ms. Furchtgott-Roth. We already have a substantial deficit, 
and these government programs would come at an additional cost. 
One has to figure out what is worthwhile. And there are plenty 
of----
    Senator Hassan. I also saw Dr. Harrison wanted to comment, 
so I want to make sure we get to him as well.
    But just to that point, in New Hampshire, because of our 
low unemployment rate, we actually had significant reserves in 
our welfare fund. We could use those reserves for some of these 
supports and wraparound services. And then we see things like 
people who get benefits from expanded Medicaid going into the 
workforce, because they weren't healthy enough with chronic 
illness and kind of a revolving door into the emergency room to 
work. Now they are. So there is some good evidence that it 
could actually address some of our deficit issues as well.
    Ms. Furchtgott-Roth. Right, exactly. But if we look at 
Europe that has government-paid maternity care, frequently 
government-paid childcare, in many cases, their labor force 
participation rates are no higher than ours, plus their 
economic growth is much lower than ours in general, because 
these benefits kind of weigh down on their sectors.
    Senator Hassan. Well, and I don't think anybody is 
suggesting exactly the same thing.
    Dr. Harrison.
    Dr. Harrison. I was just going to say, these issues really 
are all related, and we see the same thing happening at the 
college. As I said in my testimony, most college students are 
working. Many of them have family responsibilities. So the same 
kinds of challenges that exist in the workplace exist in terms 
of helping them advance their education.
    We need to remember that the education/employment pipeline 
really isn't sequential anymore. It is happening concurrently. 
And it is left to the student in many cases to balance their 
job schedule, their family responsibilities, and their academic 
workload. And that is something that we work with every day. We 
try to help them manage it.
    Senator Hassan. Thank you.
    Mr. McLemore, anything to add?
    Mr. McLemore. No, Senator. I think it has been covered 
quite well by my fellow panelists.
    Senator Hassan. Thank you very much.
    And thank you, Mr. Chair.
    Representative Tiberi. Thank you.
    Mr. LaHood is recognized for 5 minutes.
    Representative LaHood. Thank you, Mr. Chairman. And I want 
to thank the witnesses for being here today, for your valuable 
testimony, and for the subject matter.
    The district I represent in central and west central 
Illinois is a fairly rural district, but a common complaint 
that I hear from employers, and I have some larger employers--
Caterpillar is based there, State Farm Insurance, John Deere, 
ADM--that there are lots of jobs available, but no one can pass 
a drug test or a criminal background check, and I hear that 
constantly.
    And I know some States have been creative in what they have 
done to help in this area, but I wanted to ask Dr. Harrison or 
maybe Mr. McLemore, in your experience, have you seen where 
States have been creative or how they have helped to address 
this problem and any thoughts you can shed on that?
    Dr. Harrison. I don't have a silver bullet solution to 
that. I mean, I think it is something in Ohio we are certainly 
struggling with. And the one thing I would say is we are trying 
to do it collectively in our State, and address both the 
individual that is involved, but also look at, you know, how we 
can prevent that down the road.
    As I mentioned earlier, we are trying to do it through 
education and awareness and those kinds of things. But it is an 
issue certainly Ohio is struggling with.
    Representative LaHood. Mr. McLemore.
    Mr. McLemore. Yes, I agree with Dr. Harrison. It is a 
collaborative approach. I don't have specifics around how we 
would address it, other than I did mention earlier, Honda does 
support and participate in soft skills training at the high 
school level. One of the things that I believe we could do is 
to include that in our soft skills training with youth and talk 
about the negative impact of that on their lives as well as 
their careers, specifically in manufacturing or in any career 
that they pursue. But we haven't implemented any specific 
models, other than involving soft skills training for youth.
    Ms. Furchtgott-Roth. We have had success in the past with 
massive reeducation campaigns. There are kids who will take 
drugs, but they won't throw trash on the ground. They have been 
brainwashed not to litter. They have been brainwashed not to 
smoke cigarettes. The rate of smoking has dramatically 
decreased, littering. And recycling, we brainwash them to know 
that you should throw your bottle in the right trash can.
    We need to have a similar effort with these opioids and 
with these drugs. We are not putting enough effort into it. We 
need to be starting at grade school, massive campaigns like we 
have. And I am sure that if we have done it with these other--
we have seen results with these other things, we can also see 
results with drugs.
    Representative LaHood. And is it your thought that the 
statistics that show how many jobs are available, that that 
would change if this was implemented the right way?
    Ms. Furchtgott-Roth. I also think that we need to be 
carefully looking at the replacement ratio, as how much people 
gain when they are not working and dial that back. They are not 
eligible for all kinds of programs that they didn't used to be 
eligible for 10 or 15 years ago. It didn't used to be that 
able-bodied adults were able to collect benefits. They had to 
work. Now they can collect benefits. So we are also seeing the 
results of these.
    Representative LaHood. Thank you.
    Another area that I wanted to cover is what I call kind of 
the brain drain from rural areas to urban areas. There seems to 
be a gravitation towards more of our cities and urban areas and 
young people that don't necessarily want to come back to rural 
areas or smaller size cities and go to larger cities.
    Can you, Dr. Harrison or Mr. McLemore, comment on that?
    Mr. McLemore. Yes. Congressman, it is a challenge for 
Honda. Most of our manufacturing facilities are located in 
rural areas. In terms of finding talent, we are working very 
hard with the initiatives that we have put in place with local 
community, technical career centers, and high schools, to 
encourage young people to pursue these manufacturing 
opportunities.
    We have recently partnered with the Society of 
Manufacturing Engineers and are funding a manufacturing pathway 
at our Anna High School near our engine plant. In addition to 
that, we have mobile manufacturing labs, one of which I think 
Dr. Harrison is aware of, where we are offering training, both 
incumbent training as well as training in those regional and 
those rural areas.
    So for Honda, it is an important challenge and it is 
important that we find solutions for that.
    Dr. Harrison. We have seen both sides of that, where we do 
see exactly as you are describing, people moving from rural 
areas to urban areas, like Columbus. But I was in conversations 
just recently with employers and some of our economic 
development leaders looking at a heat map of where the jobs are 
and where the people are. And a lot of the jobs are clustered 
in the urban areas, and they can't get people to relocate from 
some of the rural areas of our State. So the jobs aren't always 
where the people are, and that is something that we continue to 
try to align.
    Representative LaHood. Thank you.
    Thank you, Mr. Chairman.
    Representative Tiberi. Before I recognize Representative 
Maloney, the Senator and I were wondering if we could go one 
more round, the folks that are here, of questions, because we 
think this has been a very, very good--is that okay with the 
four of you? Thank you.
    Senator Maloney--Representative Maloney. I almost demoted 
you.
    Representative Maloney. Thank you for holding this hearing.
    And, Ms. Stevenson, I was just at a Janet Yellen hearing. I 
am a little late. So it is important.
    Labor force participation for women peaked in the 1990s, 
and has since declined. And according to a Brookings Institute 
study, 28 percent of that decline can be attributed to the lack 
of family friendly work policies. And how would a Federal paid 
family leave policy affect vacancies in the labor force and the 
speed with which they would be filled?
    Ms. Furchtgott-Roth. Well, I think, first of all, there are 
different ways to have family leave policies, but I think any 
mandatory family leave policy would result in a declining 
hiring of women of childbearing age, because women of 
childbearing age would come with a certain cost to them. So if 
an employer had to choose a qualified man and a qualified 
woman, the qualified woman would lose out. I would say that 
mandatory paid family leave policies are not a good idea to 
promote labor force participation.
    Representative Maloney. And your comment, Ms. Stevenson?
    Dr. Stevenson. So I would disagree with that, respectfully. 
I do think that paid family leave policies promote greater 
attachment of women to the labor force, and that greater 
attachment leads to greater wage growth, which encourages 
overall participation.
    I have recently been part of a bipartisan commission with 
AEI and Brookings to put together a paid family leave proposal. 
And we did tackle this issue of wanting to ensure that there 
was as little discrimination as possible or employers 
attempting to opt out. And so we do recommend that paid family 
leave be available to both men and women.
    And that is not just for the issue of discrimination, but 
because that is actually what people want. Surveys show very 
clearly that young men today want to be able to take time to 
take care of their kids. They want to be fully engaged parents. 
And that means they need to be able to take a day off when 
their kid is sick, or they want to be able to take time off 
when they have a newborn child into the home.
    And so what we see is that when we have paid family leave 
policies, if we had a nationwide paid family leave policy, I 
believe that women would have greater labor force 
participation. They would find it easier to stay attached to 
the labor market.
    I do also want to add that while we have seen labor force 
participation of women peak in the 1990s, we have seen their 
contributions continue to grow in other ways. And so that 
illustrates that it is not just about--paid family leave isn't 
just about trying to get women to participate more in the labor 
force, but making sure we are taking advantage of our most 
skilled workers.
    Women are increasingly the most college-educated workers. 
They increasingly have the same level of job experience as 
their male colleagues. And these high-skilled, highly 
experienced workers find themselves in a bind when they have 
young children and are unable to access paid leave policies.
    And so overall, I think the economy would benefit from 
something that neutralized the issue of paid leave so that 
employers weren't wrestling with whether that was a benefit 
they wanted to offer, but something that everybody had equal 
access to.
    Representative Maloney. Well, President Trump has shown 
support with his daughter for paid leave for the birth of a 
child. And research from the United Nations shows that America 
is among two countries in the whole world that does not have a 
policy for paid leave for the birth of a child. We are in the 
same company with Papua New Guinea.
    So this seems to have more support. A bill passed the House 
of Representatives twice, did not pass the Senate.
    What are your comments on paid leave for the birth of a 
child?
    Dr. Stevenson. I think the good thing about coming last is 
we have lots and lots of evidence that it works around the rest 
of the world. And I have confidence that the United States is a 
strong economy that can succeed and do even better when we move 
to the types of policies that every other country besides Papua 
New Guinea have.
    Representative Maloney. And, Ms. Furchtgott-Roth.
    Ms. Furchtgott-Roth. Many employers have their own paid 
family leave policies, and this is something that should be 
worked out between the employer and employees on a case-by-case 
basis. There are some companies in the Washington area that 
provide 5 months of paid maternity leave for a birth of a 
child, and there are others that don't provide any.
    But it basically raises the costs of employment. We have 
already been decrying the lack of job opportunities. Any 
mandated costs on employers increase the move to technology, 
the substitution of technology for workers, and would result in 
lower employment rather than higher employment.
    Representative Maloney. Dr. Harrison, in your written 
testimony, you were talking about career education and hooking 
up businesses with schools and training young people. I have a 
very successful program near my district, right on the border, 
between IBM and a high school, where literally every child is 
trained for a job in IBM. They have partnered with them. They 
then help them achieve a college education, and then they move 
them directly into their jobs. And it is fantastic. Every child 
in that school gets a job when they graduate.
    And do you see this moving forward with businesses, you 
know, partnering with public education to train for the 
specific jobs they need? You keep reading that certain 
industries can't find the workers they need. Why in the world 
aren't they partnering and working with our schools to train 
them with exactly the skill sets that they need?
    Representative Tiberi. And before you answer, I just want 
to remind the gentlelady that her time has expired. But go 
ahead and answer.
    Representative Maloney. Thank you so much, Mr. Chairman, 
but this is an important question. When you see something 
succeeding, you want to try to figure out how you can make it 
happen again.
    Dr. Harrison. I will be brief. I believe that is the P-TECH 
program.
    Representative Maloney. Yes, that is it. That is exactly in 
Brooklyn.
    Dr. Harrison. And in central Ohio, we have a version of 
that replicated in many industries. You weren't here earlier, 
but our partnership with Honda of America is a great example of 
that. We have many other companies, American Electric Power, 
JPMorgan Chase, others, who are working to do the same kind of 
thing. It is not as specific yet as what IBM is doing, except 
with regard to what we are doing in manufacturing, but there is 
really kind of a groundswell of work in information technology, 
because a lot of the larger companies in central Ohio share 
that as an acute need. So it is something we are working 
collaboratively on with K-12, community college, and our 
university partners.
    Representative Maloney. Thank you. My time has expired.
    Representative Tiberi. Mr. Beyer, you are recognized for 5 
minutes.
    Representative Beyer. Thank you, Mr. Chairman, very much. 
And thank you all very much for being here.
    And, Ms. Furchtgott-Roth, I would like to immediately push 
back as a business owner. I have 380 employees, $200 million a 
year, and we instituted paid maternity leave 6 weeks about 4 
years ago. And we have had no tendency to try to replace these 
people with technology. In fact, it has been an extraordinary 
recruiting tool for us to bring people in.
    We find that it is so hard to attract women to a business 
where women are very successful that this can be a positive 
thing rather than a negative thing. I don't see--in fact, there 
are lots of studies that show, especially within the Federal 
Government, the legislation that Representative Maloney has 
offered again and again, that it actually saves the Federal 
Government money to do maternity leave rather than cost. You 
don't have to train new people. You don't have to hire new 
people.
    Ms. Furchtgott-Roth. Precisely. And as you know, employers 
are very smart. They can work this out on their own. The 
company that I mentioned that offers 5 months' paid maternity 
leave also has trouble attracting women, and this is a 
recruitment tool.
    I am just saying that the Federal Government does not have 
to do a mandate. This is being increasingly worked out on an 
employer-by-employer basis, as there is increasing shortage of 
women and companies want to recruit them.
    Representative Beyer. But it may well be part of the 
fundamental problem about why we have this so-called skills 
gap.
    You know, when I talk to people in the business community, 
as I do all the time, you hear this we just can't find the 
qualified people again and again. But this issue has been 
around a long, long time, not just since the Great Recession. 
And there is lots of research out there. In fact, I have got a 
passel full of articles here. But people from like Boston 
Consulting Group, Andrew Weaver, Paul Otterman, they show that 
really there is little evidence of a meaningful and persistent 
skills gap, that there are many other things part of it, 
including wage stagnation and including that one of the 
greatest obstacles may be employers' insistence on prior work 
experience in the same industry to bring them in.
    So, Mr. McLemore, as a car dealer--and I would love a Honda 
franchise, by the way--you know, we are very familiar of how 
closely we have worked together with our manufacturing to 
provide training. What is your perspective on this skills gap 
and the search for skilled employees?
    Mr. McLemore. Well, thank you for that question. I think, 
as you mentioned, there are many reasons why we have this 
challenge. And I think what I found in our partnership with 
Columbus State and the partnership with our other educational 
institutions is it is really around the understanding that 
these opportunities exist, and then what are the pathways in 
which they can get the skills and be trained to be prepared for 
these roles.
    It is just amazing to me how few individuals understand 
what the opportunity looks like and what it feels like. And 
then on top of that, how do they enter that workforce and what 
are the skills that are even required?
    I know the challenge for Dr. Harrison and other community 
colleges regarding programs that they can provide is to pull 
people into those programs. So what they have done is they have 
asked employers to come and sell those programs by marketing 
the careers which they would get as a result of that education. 
I think the key is those partnerships and that collaboration. 
Without that, people are not going to seek that training, I 
don't believe, wholesale on their own. Just not enough people 
are going to do that.
    So I think that is a big challenge for us, creating what I 
call the line of sight for those individuals that are either 
displaced or are not currently seeking that pathway.
    Representative Beyer. Thank you very much.
    Dr. Stevenson, there has been a lot of discussion about the 
impact of social benefit programs on labor rate participation. 
We hear this all the time in rural Virginia, that, you know, 
with SSDI and everything, why do people need to go to work?
    What is your perspective? Are social support programs our 
biggest labor participation problem?
    Dr. Stevenson. I do not believe so. If you compare what we 
have to other countries, we do not have a very robust safety 
net. If you look at growth in SSDI, the primary drivers of 
growth are that there are more people who qualify for SSDI. 
Because of women's increased labor force attachment, there are 
more women who qualify. And then you have an aging workforce, 
which means that people are getting to that time in their life 
where they are more likely to develop the kinds of problems 
that would lead them to be on SSDI.
    I do believe that it would be useful for us to do a better 
job of helping people who are able to get back to work get back 
to work. And there are certainly lots of demonstration projects 
out there to try to figure out how to do that.
    If you look overall at our benefit structure, it is not 
benefits that are keeping people out of work. And we have 
seen--I should say, you know, we did see unemployment insurance 
ramp up when we had unemployment rates of 10 percent, but we 
have seen unemployment insurance come back down as unemployment 
has recovered. And the decline in unemployment surpassed every 
forecaster's expectation, despite the fact that we had such 
robust levels of unemployment insurance.
    Representative Beyer. Thank you.
    Representative Tiberi. Thank you. Good questions.
    We are going to go for a second round here. And one of the 
questions the gentleman from Virginia asked you, Mr. McLemore, 
kind of piqued a thought in my mind. Let me give you a 
hypothetical. This could apply to any State, but let's do it 
from an Ohio perspective. And, Dr. Harrison, please share your 
thoughts as well.
    Let's assume you had a large international manufacturing 
CEO, to my left. He is the CEO of a large manufacturer. He 
wants to put a facility, a manufacturing facility, let's say in 
the Midwest. And so he comes to Ohio, and the concern he has is 
can I get enough people to work.
    Senator Heinrich. I think I might want to put it in 
Albuquerque. But we can discuss that later.
    Representative Tiberi. Well, you might, you might. But we 
don't have anybody from Albuquerque on the panel to answer the 
question, so we will just use Ohio. But it could be 
Albuquerque. It could be a manufacturer in Albuquerque and a 
community college president in Albuquerque. And his question to 
you would be, from a community college president's perspective 
and from a manufacturer's perspective who has been around, in 
your case, 30 years, what do I do to get 5,000 workers employed 
in your region? Tell me, should I be concerned and look to 
Michigan, New Mexico, New Hampshire? How would you answer that 
question?
    Dr. Harrison. I will start this time. I think my first 
question to him would be, how creative are you willing to be? 
Because we in Ohio, central Ohio, we have got the building 
blocks that would be able to get 5,000 people ready to go for 
her or his business. It would take a collaborative effort. It 
would take a community effort. But I say all the time I have 
got 26,000 students at Columbus State, they are all looking for 
a job or for a better job. There is a way, there is a pathway 
to make that happen with this employer.
    What we are seeing is all employers are struggling with 
this. Those who are creative in their HR practices are really 
starting to turn it into a competitive advantage, and the 
gentleman to my left I think can speak to that.
    There wasn't a career path for people with associate 
degrees at Honda 4 years ago. And now we are filling rooms with 
information sessions and those kinds of things, and that is 
being noticed by employers from other industries. So these 
creative, inclusive business practices, from an HR standpoint, 
is what we are seeing leading employers really start to pay 
attention to.
    Mr. McLemore. So Dr. Harrison nailed it, as I thought he 
would. It is a question of how much does that CEO and that 
company want to engage in that collaborative effort within that 
State.
    So for Ohio, just speaking from our perspective, currently 
with our partnership with Columbus State, but in addition to 
that, JobsOhio, so local and State government, there is a lot 
of momentum that is happening around discussions like what we 
are having today. And I think if a company and a CEO wants to 
really understand how to make that happen quickly, they have to 
be willing to engage directly, because I think the 
infrastructure is there for Ohio.
    So it is understanding what infrastructure exists, whether 
that is through data, but that partnership and a willingness to 
come to the table and be innovative and speak frankly about 
what their needs are, and then how can a community college 
accommodate those needs.
    Ms. Furchtgott-Roth. You also find that people move. So 
when the Boeing plant was opened in South Carolina, people were 
moving to north Charleston to take those jobs. North Dakota, 
when there was the oil boom, people were moving to North 
Dakota. Stephen Moore has written a series of books called 
``Rich States, Poor States'' documenting this movement from 
States that don't have jobs to States that do have jobs.
    Mr. McLemore. Mr. Chairman, could I add something to that? 
So a thought came to mind.
    One of the things that we did with Columbus State is we 
conducted a specific workforce analysis of the specific role 
that we were struggling to fill internally. And what we did is 
we turned the results of that over to Columbus State so that 
they could accurately align their curriculum to the specific 
needs that we had.
    So in addition to understanding and being collaborative, I 
think for the company, it would be in their best interest to 
speak directly about what skills they are looking for and what 
their needs look like, and how can the community college and 
other educational institutions provide students that have those 
skills.
    Dr. Harrison. Mr. Chairman, if I may, it really is a 
partnership and a kind of collaboration that Scot is talking 
about. I was in a meeting not unlike this or a conversation not 
unlike this with chief HR people from our region from a lot of 
different industries recently, and I was just asking them about 
their employment practices. And the conversation went something 
like, well, we go to the, you know, our local university and we 
look for accounting majors with a 3.4 GPA or above. And oh, by 
the way, we are trying to diversify our workforce. And we all 
kind of laughed. I am like, well, how is that working for you? 
And then I said, you know, my student served 6 years in the Air 
Force, it has taken him 4 years to earn a 2-year degree because 
he is working and supporting his family. He is never leaving 
Columbus, and he is going to work hard for you for the next 30 
years. I had three of them come up to me after the meeting and 
say, I want the Air Force guy, but my current HR practices 
wouldn't allow me to hire him. He wouldn't make it through the 
system.
    So, again, they are starting to recognize--but, again, 
progressive companies are starting to recognize that that is an 
issue and they are making those changes.
    Representative Tiberi. One final--go ahead. No, no, please, 
because this is a little bit off. Go ahead.
    Senator Heinrich. So I find that fascinating and 
heartening, and I want to go back just real quickly to 
something we touched on earlier, but, frankly, I didn't feel 
like we heard a lot of solutions to, and that is that 
geographic mismatch between urban and rural areas.
    And I don't believe that we can just say the solution is 
going to be everybody is going to move to an urban area. We 
need a vibrant rural small town economy in this country and one 
that is not purely based on low-wage service-sector jobs. So 
what should we be thinking about in terms of how we can invest 
in that population, in their education, and in business 
development opportunities to make sure that the solution is not 
just, okay, you are going to chase the job? That pull is always 
going to be there for people to move to places where jobs are 
created, but we can't afford to turn our back on rural America. 
We need to invest in jobs there.
    Dr. Harrison. My light is on so I will go.
    Senator Heinrich. You drew the short straw, Dr. Harrison.
    Dr. Harrison. Well, we face this in Ohio, because we have, 
you know, very successful and growing urban populations and we 
have got large rural areas. And one of the things that we are 
working with when we think about statewide strategy is, in a 
technologically driven workforce, how distributed can the 
workforce be?
    And we do believe that there are technology-enabled jobs 
with large and small companies where people don't have to leave 
their community, they may not have to leave their home. So 
things like broadband access and those kinds of things to rural 
areas has become really important, but also I think just an 
understanding of the possible. Because in so many rural areas 
in Ohio, the aspiration is to be the manager of McDonald's, and 
there is nothing wrong with that, but that is all they see. 
Scot talks about the line of sight.
    So the ability to work with large technology companies and 
help people understand that these are within their reach. There 
are many tens of thousands of jobs that are unfilled in Ohio. 
These are the steps to get there. It may not even require a 
bachelor's degree or even associate degree. A technical 
certificate can get you started. And with the right employer, 
you may not have to even leave----
    Senator Heinrich. I liked your example of the Air Force 
veteran, in part, because I think that line of sight needs to 
go in both directions. So people need to know what is possible 
in places where those jobs may not be there today, but they 
could be, and then employers also need to understand the 
inherent advantages that you may acquire with a workforce in a 
rural area that has an incredible loyalty to the business 
itself and an investment in community that you might not find 
in other places.
    Representative Tiberi. You had a thought there.
    Mr. McLemore. No. I am just realizing I misunderstood 
Congressman LaHood's question, I think.
    So our challenge is really, as the demographics, as it was 
stated, we are losing people in rural areas populationwise to 
urban areas. For Honda, we are focusing on our 15-county 
radius. As I mentioned before, our facilities are located in 
rural communities. Our focus is there. However, it includes 
Franklin County and other urban areas in which, actually, I 
live.
    So I am familiar with the challenges of getting people that 
live in urban areas out to a Marysville, Ohio. Even though I 
have been doing it for 30 years and I think it is great, it is 
an awareness of those opportunities out there. But we are 
continuing to focus on our local communities, whether they be 
rural or whether they be urban.
    Representative Tiberi. Senator Hassan.
    Senator Hassan. Thank you. And this has really been a great 
discussion, and I greatly appreciate it.
    You know, one of the things that some businesses in New 
Hampshire have been doing to this whole issue of line of sight 
is not only working to help young people understand the career 
pathway, and we have a whole career pathway initiative in our 
public school systems with our community college systems right 
now, but we also see companies bringing in guidance counselors 
and parents, especially around advanced manufacturing, because 
so many parents think that manufacturing is something that will 
injure your child in a dirty environment instead of the high-
tech effort that it now is.
    But I also just wanted to touch on a couple of the efforts 
that the Federal Government has invested in to help with the 
kind of partnerships that Dr. Harrison and Mr. McLemore, you 
have been talking about so well this morning.
    One of them came with the passage of the Workforce 
Innovation and Opportunity Act in 2014, which was integral in 
helping States expand sector partnerships, to ensure workforce 
training is coordinated and responsive truly to the employer's 
need. And they are led by industry and a makeup of different 
stakeholder groups. It is a sector partnership model. And are 
you familiar with it? Do you think it is something that if we 
expand it, it would be helpful in developing the kind of 
workforce we need?
    Dr. Harrison. In central Ohio, we really do focus on a 
sector strategy approach, and a lot of that is a cascade from 
our statewide economic development plan. And the answer is yes, 
we see it working really well.
    We also see real advantages--and Scot talks a lot about 
this in our local groups--of having cross-sector----
    Senator Hassan. Right.
    Dr. Harrison [continuing]. Conversations as well, because, 
as I said before, the model that Honda has put in place with 
their co-op program, we have got companies from other 
industries that are trying to replicate. So I think both are 
important.
    Senator Hassan. Yeah, because the other program that has 
been very important in New Hampshire is our TAACCCT grant 
program, and I think you referenced a similar program. Our 
Great Bay Community College started an Advanced Technology & 
Academic Center largely through the use of a TAACCCT grant that 
brought an additional $4 million in State funds, and then 
participation and partnerships of companies all across the 
region. So we now have more than 100 partners in industry as 
well as State and Federal agencies. And the Center is helping 
to create a program that gives students advanced manufacturing 
skills.
    And, again, it seems to me that you are both saying, 
strategically done with good partnerships so that the educators 
understand the needs of the actual industry and a variety of 
industries, they can really make a difference. Is that a fair 
assessment?
    Dr. Harrison. Those kinds of Federal investments can truly 
be catalytic. We were involved in a TAACCCT grant in logistics 
that included colleges from eight States. And the ability to 
really bring those kinds of things to scale and the Federal 
investment gets people to the table and really brings 
employers, K-12, and the community college kind of run in the 
same direction and really trying to move the needle forward.
    Senator Hassan. The last question I have about this issue 
is just--strikes me, because it is something that one of our 
major employers, a large hospital in the Seacoast of New 
Hampshire took on, but it is understanding that, as we work 
with a labor pool that may have had low participation rates or 
lack of education or training, often these folks are working at 
entry-level jobs. And the training programs that have 
traditionally been offered even through community colleges have 
been, you know, 6 months, a year, 2 years.
    What this healthcare organization decided to do was help 
train people up in what is normally a 2-year curriculum in kind 
of a series of boot camps over weekends, so that you are still 
giving people the opportunity, to that Air Force vet's example, 
of working and supporting their families. But often, for single 
parents in particular, the notion that they could just give up 
their work for 6 months or a year to get highly trained is just 
not reasonable.
    So are you seeing kind of different ways of developing the 
curriculum and the schedule for students so that they can do 
both of these things?
    Dr. Harrison. In more and more of our programs, our 
curriculum design is based on stackable certificates so that 
students are able to earn a workforce-based credential with 
market value before earning the associate degree, but what they 
have earned there counts fully towards their ultimate earning 
of the associate degree, because most students are working 
while they are going to school.
    I do want to follow up, if I may, on the Federal investment 
idea. And, Mr. Chairman, you will be very familiar with this. 
The city of Columbus competed against 77 other cities last year 
with the U.S. Department of Transportation grant called Smart 
Cities Challenge. A similar kind of program in this workforce 
area could truly be catalytic. And if you look at how that has 
brought the community together. It was a $40 million investment 
from the U.S. Department of Transportation. Central Ohio has 
now put in over $500 million in private and local funding to 
really make that a benchmark that we think will move the needle 
not just for central Ohio but for our Nation.
    The same kind of model could work in this workforce 
misalignment area when you are getting the right people at the 
table. And, again, Federal funding can really help move that 
along.
    Senator Hassan. Well, thank you.
    And thank you, Mr. Chairman.
    Representative Tiberi. A perfect segue. A final question, 
Dr. Harrison, because you mentioned this in your testimony.
    Anecdotally, I have heard in my district, a person in a 
rural area, who has a job in Columbus downtown, but has a beat-
up car. Car breaks down, now they can't get to work, no bus 
line; opposite to, you have a person who lives in the urban 
part of Columbus, job is in Dublin, a suburb, or Amazon on the 
east side, no bus line. How does that Smart Cities Challenge, 
in your mind, fix that, or does it?
    Dr. Harrison. Well, we are hoping it does, because, first 
of all, our public transportation, COTA, is a key part of that, 
and it wasn't necessarily part of Smart Cities, but it was part 
of another Department of Transportation grant where we have got 
a rapid transit line that now comes down Cleveland Avenue, 
where the buses signal the traffic signals so that there are 
fewer lights that they have to stop at. And the hub of that is 
right in front of our bookstore at the college, which is kind 
of the entry to the city.
    So what that will do, we hope, is promote more public 
transportation, because now, instead of sitting on a bus for 45 
minutes or an hour one way, when you have got children or a job 
you have got to get to, it makes it much more efficient. We 
also think that the Smart Cities work specifically should be 
able to contribute to a much more robust ride-sharing 
operation.
    If you look at the traffic that comes into our campus every 
day, it is full of cars with only a driver, and they are 
following each other down 670 or 71 or Cleveland Avenue, and 
the ability to really create a smarter infrastructure around 
those connections I think will be important. If you layer on 
then an electric or autonomous vehicle that is part of that, it 
really can change the dynamics of the region.
    Representative Tiberi. Wow, this has been fascinating. I 
hope you four have thought so as well. I think the committee 
here has gotten a lot out of this.
    So I appreciate your time today. Thank you for making 
yourself available. We like to remind the witnesses that the 
record will be open for 5 business days for any member that 
would like to submit questions for the record. Thank you all so 
much.
    This hearing is adjourned.
    [Whereupon, at 11:46 a.m., the committee was adjourned.]

                       SUBMISSIONS FOR THE RECORD

Prepared Statement of Hon. Patrick J. Tiberi, Chairman, Joint Economic 
                               Committee
    Good morning and welcome to the Joint Economic Committee's hearing 
on job vacancies and the labor market. I want to especially welcome our 
Ranking Member Senator Heinrich, as well as the other Members of this 
Committee who have expressed a keen interest in exploring this 
important economic topic.
    On the surface, low unemployment and a large number of vacancies 
suggest that the labor market is tightening. However, wage growth has 
been slow and many potential workers remain on the sidelines. Something 
is not yet right with the U.S. labor market.
    I've heard from many employers, in Ohio and around the country, 
that they are struggling to fill good-paying job vacancies. These 
employers tell me about people not being able to pass a drug test, and 
people not having the skillset to qualify.
    I believe there are causes on the demand side as well as the supply 
side of the labor market, and among both are economic policies by the 
Obama administration that weakened the recovery of business investment, 
labor productivity, and work incentives after the last recession.
    Business investment and productivity must rise faster for wages to 
rise faster, and more people must join the workforce to raise economic 
growth.
    The U.S. population is still growing. Since just prior to the 
recession, the population has increased by 22 million people of working 
age, yet the labor force has increased by only 6 million people. The 
baby boom generation is moving into retirement, but people in their 
prime working years also are participating less in the labor force than 
before the recession.
    In addition to the work Congress and the Administration are doing 
to reform taxes, improve regulation, and alleviate unnecessary 
government mandates, we also must focus attention on improving the 
institutions that prepare our workforce for new challenges.
    That is why I have invited expert witnesses to this hearing who can 
provide perspectives from the economist's, educator's, and employer's 
point of view.
    We must explore the value to the economy and individuals of sending 
ever more people to college, how well high schools position graduates 
for the workplace, how employer requirements inform the educational 
system, and what employers are contributing to the skill development of 
current and prospective employees.
    In the United States, we must find better ways to equip young 
people and workers of all ages with marketable skills and the ability 
to adapt to changing market demands as they progress through their 
careers. I look forward to learning from the insights of our expert 
panel today on how to improve worker proficiency, flexibility, and 
motivation.
    Faster economic growth and rising living standards for American 
families will result from getting this right.
                               __________
  Opening Statement of Hon. Martin Heinrich, Ranking Democrat, Joint 
                           Economic Committee
    Thank you, Chairman Tiberi, and thank you to our panel for being 
here today.
    The employment picture is brighter than it was eight years ago, but 
not as bright as we want or need.
    Too many Americans can't find a job, or are in jobs that pay wages 
too low to achieve financial security.
    Employers complain they can't find candidates with the right skills 
to grow their business.
    And some parts of the country--for example, many rural areas--have 
largely been left out and need basic investment.
    Today, we are focusing on one way to create opportunities for more 
Americans--namely, by investing in education and training options.
    Some industries in some regions of the country face a mismatch 
between the skills employers need and the skills workers have.
    Addressing this is important, but that alone won't adequately 
improve the economy or strengthen financial security for families and 
communities.
    To do that, Congress must work with State and local leaders to take 
an all-of-the-above approach that supports workers and businesses.
    In the 21st Century economy, college is increasingly important for 
financial security.
    Congress has a significant role to play in making sure students are 
not priced out of the future they want and are ready to work for. 
Access to an affordable college degree must be available to every 
student.
    We also know that a college degree is not and should not be the 
only path to a bright future.
    Career and technical education, apprenticeships and other training 
programs lead to good-paying jobs.
    Here, community colleges have an important role to play because 
they understand the needs of local employers, are committed to creating 
opportunities for their students, and can design programs and courses 
that are responsive to employers' current and future needs.
    TechHire Albuquerque launched earlier this year in New Mexico.
    Using a Federal grant program, Central New Mexico Community College 
partnered with employers and State agencies to create an IT pipeline--
by providing training, work experience, and job placement.
    Graduates learn new computer coding skills, earn industry-
recognized credentials, and are able to put those skills to use with 
area employers.
    Employers are able to fill open positions with candidates with 
proven skills.
    That's the type of innovation and creative problem-solving Congress 
should be promoting.
    It's also critical that we target training at high-growth sectors 
of the economy.
    That's what Central New Mexico Community College has done with its 
STEMulus center, offering coding bootcamps and new classes in Java, 
Android and Salesforce.
    This week, Senator Gardner and I introduced the CHANCE in Tech Act, 
which encourages educators and businesses to start apprenticeship 
programs for the tech sector. This will connect more Americans to a 
growing sector where jobs are opening up every day.
    In an all-of-the-above approach, we must recognize that investing 
in the workforce starts well before college or even high school. It 
starts by investing in proven programs that set children up for success 
later in life.
    This is why access to universal pre-K is so important and why I am 
a strong advocate of the two-generation approach, which provides 
quality early education for children while providing workforce training 
for parents.
    We've seen this work in New Mexico. The United Way's Early Learning 
Center in Santa Fe offers year-round, full-day services for children 
alongside technology, employment and social service assistance for 
parents.
    For workers to remain competitive in the future economy, learning 
and skills development must continue over a lifetime.
    Companies must get back in the business of investing in their 
workers. Not just because it's the right thing to do, but because it's 
the prosperous thing to do for businesses and workers alike.
    There is much work for us do here. For the Nation to be competitive 
in the future economy, we must find new solutions.
    I look forward to hearing from our witnesses.
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
  
    
Prepared Statement of Scot McLemore, Manager, Talent Acquisition, Honda 
                          North America, Inc.
    Thank you Chairman Tiberi, Ranking Member Heinrich and the members 
of the committee for hosting this hearing on the critical issue of 
workforce participation and workforce development. This is a topic 
vital to the United States economy and to companies like Honda who have 
significant domestic manufacturing operations.
    My name is Scot McLemore and I serve as manager of Talent 
Acquisition at Honda North America. In my role at Honda, I work to 
develop strategies to help address workforce challenges. It is my honor 
to be here today to share some of those initiatives with you and 
discuss ways that industry and government can partner to activate the 
full potential of the domestic manufacturing sector. Honda has more 
than 70 facilities in the United States, including 12 manufacturing 
plants that produce a wide range of products; including cars, trucks, 
light business jets, power equipment and power sports products. More 
than 73 percent of Honda's 30,000 U.S. associates work in manufacturing 
roles. In addition to our direct employment, Honda works with more than 
600 U.S. suppliers who employ tens of thousands of workers nationwide.
                              i. overview
    Manufacturing jobs are high-paying jobs, with good benefits, which 
should be highly attractive in our current economic climate. 
Unfortunately, however, there is a shortage of young people entering 
the manufacturing workforce, and that alone threatens the foundation of 
American industry. According to a 2015 Deloitte study completed in 
conjunction with the Manufacturing Institute, nearly 3.4 million 
manufacturing jobs will need to be filled over the next decade; 2.7 
million of those jobs will be due to retirement and another 700,000 
will be due to new job creation. Of those 3.4 million jobs, two million 
are expected to go unfilled because of a lack of interest in 
manufacturing or simply because prospective employees lack the 
essential skills needed to be successful in a manufacturing role.
    This situation presents a great opportunity for our country, but 
without immediate action, the number of unfilled jobs will only 
continue to grow. The same Deloitte study found that only 37 percent of 
parents would recommend a manufacturing career to their children. 
Despite the reality that the average manufacturing employee earns 
roughly $15,000 more than the average employee does across all other 
sectors, the industry has long been stigmatized by the outdated visions 
of the factory floor of yesteryear.
    Even when prospective employees understand the opportunity of a 
career in manufacturing, too often they lack the skills to succeed in 
modern industry. Specifically, these individuals often do not possess 
the problem solving ability, technical training, computer knowledge, or 
math skills needed to compete in the 21st century workforce. Modern 
manufacturing equipment and processes involve an integration of 
pneumatic, hydraulic, mechanical, electronic and computer-networked 
components. Employees must have the ability to understand these systems 
and how they work together to be able to install, troubleshoot and 
modify to maintain daily operations within a facility.
    Honda's success is reliant on our ability to hire and develop 
talent to build the high-quality products that bring our customers joy. 
While it is true Honda has a stake in more people entering 
manufacturing positions, we want to implement programs that create 
interest and opportunities for all companies and to help advance the 
entire U.S. manufacturing economy.
    ii. what honda is doing to encourage interest/address skills gap
    As we have developed our workforce education and training programs, 
Honda has taken an intentional approach that establishes a pathway for 
students from middle to post-secondary education so that they may have 
a successful career within the manufacturing sector, which I will 
outline today. Our programs reflect our desire to build enthusiasm and 
passion for individuals who pursue careers in manufacturing, which we 
believe can be achieved through innovative instruction and continued 
skills support.
A. Early Engagement
    Honda believes that the first step in technical workforce 
development is to create excitement for manufacturing jobs through 
enthusiastic engagement with students, parents and educators. One way 
we are working to engage students early in their academic career is 
with the deployment of an educational video game for middle school aged 
children. Through a partnership with an Ohio-based company called 
EdHeads, we have developed a unique virtual experience designed for 
classroom use. The game teaches logic, critical thinking and takes 
students right to the engine manufacturing line where they apply math 
and problem solving skills to find answers to real world problems. This 
free resource is available at http://edheads.org/page/manufacturing1. I 
encourage you to visit the site and share this resource with any of 
your constituents who may be interested.
    However, we also recognize that creating interest comes down to 
providing hands-on opportunities for students to experience 
manufacturing in real life. To help facilitate this learning, Honda has 
partnered with several businesses and academic institutions to create 
mobile labs that feature robotics and other technologies that help 
middle school students develop critical thinking skills and gain an 
understanding of modern manufacturing. The fact that these labs are 
mobile allows them to travel to rural areas that may be underserved by 
most traditional workforce development programs. By expanding the 
number of students who have early access to this technology, Honda 
hopes to grow the base of students who become interested in 
manufacturing and become future manufacturing employees.
    In addition, Honda has partnered with TechCorps, a nonprofit 
organization focused on developing technology-related skills in K-12 
students, to create summer programs geared toward middle school 
students in Ohio. Interested students can attend full-day, week-long 
summer camps where they are submerged into STEM subject matters, 
including computer programming, web development and app development. 
These summer camps are designed so students emerge with knowledge, 
concepts and skills that are useful in today's classroom and tomorrow's 
workplace.
B. Skills Gap/Technical Education
    As Honda recruits technical talent, we experience the challenge of 
identifying individuals who possess the required skills to maintain 
modern manufacturing equipment. Many young people have not experienced 
learning beyond a textbook or computer to really understand how things 
work. We recognize there must be a bridge formed between creating 
interest in manufacturing and preparing people to use analytical skills 
to effectively interact with today's manufacturing equipment. Through 
our workforce development initiatives, Honda has helped to create that 
bridge from middle school robotics clubs to high school ``hands-on'' 
learning using classroom equipment which operates similar to the 
equipment found on today's manufacturing floor to providing technical 
training through work study and internship programs at community 
colleges.
    At the high school level, Honda is a strong supporter of the 
Marysville Early College STEM High School. This school was developed as 
a partnership between Honda, the Marysville School District, Columbus 
State Community College, the Ohio Hi Point Career Center, and the Union 
County Chamber of Commerce. Early college high school is a unique 
approach to education, based on the principle that academic rigor 
combined with the opportunity to save time and money are powerful 
motivators for students to work hard. Early college high schools blend 
high school and college-level courses in a supportive but rigorous 
program, compressing the time it takes to complete a high school 
diploma and the first two years of college.
    In the dual enrollment program at Marysville Early College STEM 
High School, students have the opportunity to graduate with not only a 
high school degree, but also an associate degree from Columbus State. 
Additionally, graduates possess skills that they can use right away, 
including mechanical engineering, robotics and welding skills. Honda 
believes this type of school can be replicated, not just across Ohio 
but also throughout the country as a way to help reduce the skills 
shortage.
    At the postsecondary level, Honda works with multiple institutions 
including Columbus State, Clark State, Edison State, Marion Technical, 
Rhodes State and Sinclair, to develop a STEM-focused curriculum with 
real-world applications. Classroom lessons are supplemented with plant 
visits, mentorships, scholarships and work-study programs to encourage 
interest but--more importantly--further develop the skills essential to 
a successful technical career.
    One example of providing students with access to technical training 
is a work-study partnership with Columbus State, which is designed so 
students can work at Honda three days a week and go to school two days. 
This program gives students the chance to build technical skills while 
earning their degrees. The partnership also provides students with a 
way to graduate debt free and an opportunity to pursue a career with 
Honda. Upon graduation, students may be offered a full-time position 
with the company.
    While the majority of the efforts I've highlighted thus far are 
based in Ohio, Honda has similar efforts in other communities where we 
have manufacturing operations in the United States. One of our more 
recent partnerships is with Guilford Technical Community College (GTCC) 
in North Carolina, global headquarters of Honda Aircraft Company, Inc. 
that produces the award-winning HondaJet.
    Honda worked closely with GTCC to develop programs to train 
prospective Honda aircraft technicians and avionics experts. Honda 
continues to work with Guilford College as it expands its new avionics 
program. The government has also supported Guilford in the expansion of 
these programs, which has resulted in an emerging aerospace and 
advanced manufacturing industry cluster in the region.
    In Indiana, Honda has partnered with Ivy Tech Community College to 
offer paid internship opportunities for students enrolled in the 
school's advanced automation and robotics technology program, an area 
where the skills gap is acutely felt by manufacturers. Ivy Tech 
students have the opportunity to work two days a week at Honda while 
continuing their education at Ivy Tech. These internships offer 
students an opportunity to apply their knowledge in the real world and 
for Honda to evaluate the student for potential full-time employment.
C. Continuing Education
    Because the technology in modern manufacturing, particularly that 
within the automotive industry, is constantly changing, we make a 
commitment to ensure that education does not stop once associates are 
hired. It does not matter if associates have five years of work 
experience or 25. Honda remains committed to ensuring our workforce has 
the skills necessary to be part of our exciting future. To that end, we 
have established technical training centers near several of our 
manufacturing operations including in Ohio, Indiana and Alabama. These 
training centers help ensure that Honda associates stay current with 
the robotics and technology in their work process and, most 
importantly, can continue to develop professionally by building on the 
skills and knowledge they have gained throughout their careers. Honda 
is constantly looking for the most effective method to provide 
associates with the skills required to produce the high-quality 
products we build. One example is the use of Virtual Reality technology 
or ``VR.'' This technology allows associates to interact with virtual 
components and equipment simulating real equipment in a training 
environment reducing material and equipment costs. This type of 
technology may be used in a secondary or post-secondary classroom 
setting in the future to help prepare students for technical 
manufacturing careers.
    The success of these technical training centers is a credit to our 
partnerships with academic institutions like Columbus State. By having 
educational professionals work with our technicians, Honda is able to 
employ best practices and educational techniques that are critical to 
the success of these programs. We are also able to ensure the alignment 
of Columbus State's curriculum with the skills required within Honda's 
production facilities.
D. Recommendations
    We strongly believe that Honda's future and the future of 
manufacturing in the United States rests in the hands of programs like 
the ones I have outlined today. These programs have been developed so 
that they can easily be adopted in other regions of the United States 
based on the activities and philanthropic approach of the various Honda 
operations and/or by other companies.
    The key theme throughout this presentation is ``partnership.'' 
Closing the manufacturing skills gap will be impossible without 
proactive collaboration between academia, government and private 
industry. While many partnerships already exist, there must be a 
significant increase and expansion of these collaborative attempts to 
develop a 21st Century workforce.
    Additionally, continued support and improved access for STEM 
education is critical to ensuring that our future workforce have the 
skills to compete in modern manufacturing.
    One thing Congress can do immediately is to reauthorize the Carl D. 
Perkins Career and Technical Education Act, which recently passed the 
House of Representatives. The current version of the bill will help 
encourage more collaboration between stakeholders to ensure students 
have a pathway to a relevant and meaningful technical career.
    Like many employers, Honda stands ready to work with Congress to 
help solve the critical workforce issues that stifle the full economic 
potential of our country.
    I want to thank the members of this committee for your interest in 
this issue and for inviting me today to highlight some of Honda's 
efforts. We greatly appreciate being included in this very important 
conversation.
                               __________
    Prepared Statement of Betsey Stevenson, Associate Professor of 
   Economics and Public Policy, The Gerald R. Ford School of Public 
                     Policy, University of Michigan
    Chairman Tiberi, Ranking Member Heinrich, thank you for the 
invitation to testify today about the state of the job market and the 
record number of vacancies that our businesses posted at the end of 
April. I want to start by placing job openings in the context of a 
strengthening labor market. Today's high level of vacancies is largely 
a reflection of strong job growth. Then I will turn to challenges in 
the labor market in filling positions.
                         a strong labor market
    As of June 2017, the unemployment rate stood at 4.4 percent. The 
sharp drop in the unemployment rate coming out of the Great Recession 
consistently surpassed consensus forecasts, thanks to the stimulus 
package (ARRA) and fiscal and monetary policies that strengthened the 
economy and boosted aggregate demand.
    Businesses are continuing to hire in large numbers. Just this past 
June total hiring once again surpassed expectations. Over the past six 
years, we're seen the longest, most persistent streak of job growth on 
record. Since March 2010, businesses have added nearly 16.5 million 
jobs. Today there are 7.8 million more jobs than the pre-recession 
peak. All of this growth has led to more openings, and as the committee 
has noted, the number of job vacancies on the last business day in 
April was the highest since the series began in 2000. To put this in 
context, during the depths of the recession new job postings dropped to 
a low of 2.2 million a month.
    The number of vacancies are recorded on the last business day of 
the month. This point in time snapshot of available jobs can be 
compared to the subsequent hiring that happens over the next several 
weeks. Over the past six months, there have been 5.6 million vacancies 
on average on the last business day of each month. Over the subsequent 
month, 5.3 million workers were hired, illustrating the close link 
between vacancies and hiring.
    One of the clearest signs of the strengthening labor market has 
been the increase in workers quitting jobs. During the depths of the 
recession, only 1.6 million workers quit a job in September of 2009. In 
contrast, over the past year, more than 3 million workers a month have 
quit a job. Workers' willingness to quit suggests that they are 
receiving better offers or have confidence that they'll be able to find 
other work.
    The typical hiring of roughly 5 million workers a month is the 
result of a dynamic labor market in which entrepreneurs hire people for 
their new businesses, and old businesses fill positions as people leave 
and create new jobs as they expand. Roughly 5 million workers also 
leave jobs each month as they seek better opportunities, or as 
businesses eliminate jobs they no longer need, or to close their doors 
completely when the market no longer wants their products. For workers, 
job changes are essential for them to climb the ladder to better and 
higher-paying opportunities. Research shows that changing jobs is a 
primary way in which workers achieve real wage gains, on the order of 
2-6 percent increase in real wages from job changes in recent years.\1\
---------------------------------------------------------------------------
    \1\ For example, Molloy, Raven, Christopher L. Smith, and Abigail 
K. Wozniak. Declining migration within the US: The role of the labor 
market. No. w20065. National Bureau of Economic Research, 2014 and 
Fallick, Bruce, John Haltiwanger, and Erika McEntarfer. ``Job-to-job 
flows and the consequences of job separations,'' 2012.
---------------------------------------------------------------------------
    I want to highlight that one of the challenges facing the U.S. 
labor market in recent decades has been a decline in dynamism. Dynamism 
is what allows the reallocation of workers and capital to their most 
productive use. When workers can find better opportunities easily, both 
businesses and workers benefit.
sectoral shifts leave some workers without necessary skills and require 
                         new training programs
    While job change is a natural and essential part of our economy, 
sectoral shifts present challenges for workers and for policy makers 
seeking to smooth the costs associated with these transitions. Workers 
in shrinking sectors face a decreasing number of opportunities for wage 
gains, and an increasing likelihood of being left without a job if they 
lose the one they have. Goods-producing jobs, most notably 
manufacturing, are losing jobs, while healthcare, education, and 
information technology are adding jobs. While more jobs are being added 
across sectors than are lost, the within-sector losses present 
hardships and uncertainty for workers in declining sectors. It's 
important to keep in mind that this happens within the context of 
substantial churn within the sector. For example, over the past two 
decades more than sixty million people were hired into manufacturing 
jobs, yet more than sixty-five million people quit or lost 
manufacturing jobs. It's like a game of musical chairs in which the 
number of chairs shrunk by five million. Those who lose their seat face 
tremendous hardship and a difficult, and sometimes impossible, 
transition as they struggle to find one of the remaining positions or 
give up and attempt to apply their skills and experience elsewhere.
    Sectoral changes are not a new force in the U.S. economy, but the 
changes that are occurring are hurting some groups more than others. 
Many declining sectors are in traditionally male occupations, while 
traditionally female or more gender-mixed occupations are growing. 
These changes will require that we not only provide training for 
workers to successfully transition, but that we confront and eliminate 
stereotypes about jobs and the people who hold them. That may require 
rethinking how we train workers for these jobs since research shows 
that education and training methods, materials, instructors, and even 
environment can shape gender and racial inclusivity.
    Growing sectors represent opportunities for workers, but they also 
present challenges in that hiring needs may outpace the skills of 
current workers. Since the end of 2000, more than 104 million people 
have been hired in education and health services and nearly 97 million 
people have left such jobs, for a net gain of 7.5 million jobs. At the 
end of March, there were 4.6 million vacancies in education and health 
services, but only 2.6 million workers were hired the following month. 
A similar pattern has held over the past few years, with openings 
exceeding hiring suggesting that perhaps this is an industry that is 
struggling to find qualified workers. However, there is little evidence 
of accelerated wage growth in the health care sector, suggesting that 
demand for workers isn't outpacing supply enough to lead to higher 
wages.
 large wage premiums for college-educated workers highlight the demand 
                        for college-level skills
    Wages provide a clear market-based signal of demand for skills and 
one of the clearest signs of demand for skills is the strong growth in 
wages of college-educated workers compared to those with less 
education. The gap between the earnings of college-educated adults and 
those with a high school degree are large and have grown over the past 
thirty-five years. Over the last decade, the wage advantage of college-
educated workers has never been greater, contributing to an increasing 
gap between those with substantial higher education and those without.
    The benefits of a four-year degree are also seen in the 
substantially lower unemployment rate for college graduates--2.4 
percent in June 2017--compared to 4.6 percent for high school graduates 
and 3.8 percent for those with only some college. Labor force 
participation rates also differ by education--73.9 percent of college 
graduates over age 25 were in the labor force in June 2017, compared to 
57.5 percent of those with only high school. Labor force participation 
rates are difficult to interpret today because the aging of the 
population is placing downward pressure on the fraction of people in 
the labor force as Baby Boomers begin to retire--a pressure that the 
U.S. economy will face for some time. However, similar patterns are 
seen when examining prime age--those 25 to 54 years old--workers. Among 
prime age men who are college graduates roughly 9 in 10 are employed, 
compared to roughly 8 in 10 with a high school degree.
    These differences are important to highlight because one of the 
largest challenges the labor force faces in developing the skills of 
workers is ensuring that students from across the income spectrum have 
access to successfully and affordably complete a four-year degree. 
While many people argue that college for all may not be necessary, or 
even possible, it is important to recognize that a century ago the same 
arguments were made about public high school. Our country's willingness 
to ignore these naysayers and make high school free and widely 
available was an engine of economic growth in the last century. While 
the United States led the world in educating our citizens last century, 
we have failed to keep up as other countries' student successes have 
surpassed ours.
                    greater wage gains are necessary
    One of the missing pieces of evidence when it comes to assessing a 
mismatch between the skills that employers demand and the skills that 
workers have is wages. Many researchers have diligently sought evidence 
of worker shortages that would naturally, in a competitive market, lead 
the businesses who would benefit most from hiring such workers to bid 
up their wages. While job growth exceeded expectations this past June, 
wage growth once again undershot expectations. Wage growth was slow 
coming out of the recession, yet accelerated in 2015 and 2016. From 
2014 to 2015, real median household income grew $2,800--the fastest 
growth on record. Wages for all private sector workers grew an average 
of 2.9 percent in 2016. Yet, growth in both wages and overall 
compensation per hour has slowed in recent quarters.
    Many economists have pointed to slow growth in labor productivity 
as a source of slower wage growth. Higher productivity should, in 
theory, lead to higher wages and is an important reason for workers to 
acquire the skills that employers are seeking. The connection between 
wages and productivity is important and provides an incentive for 
workers to become more productive. However, in recent decades the link 
between productivity and wages has weakened and the wages of most 
workers have not risen as rapidly as productivity. There are several 
potential explanations for this decoupling of wages and productivity--
including declining unionization, reduced worker bargaining power, and 
reduced worker mobility. Businesses are also increasingly engaging in 
anti-competitive labor market policies including forbidding the sharing 
of pay information and requiring noncompete clauses. Congress should 
seek to make the labor market as fair as possible by penalizing 
business that engage in such anticompetitive practices. Additionally, 
policies like updated overtime regulations, a robust minimum wage, 
enforcing workplace protections are all key areas that could help raise 
wages and improve working conditions.
    The current pace of job growth is unsustainable unless more workers 
elect to join the labor force. The challenge that businesses will 
increasingly face as they continue to hire is not that the workers who 
are available do not have the skills they are seeking, but that there 
will simply be too few workers available for them to find workers. 
Higher wages and better working conditions are therefore essential to 
ensure that more workers are encouraged to participate.
  job training and apprenticeships play an important role in building 
                            worker's skills
    There is a large role for training programs, apprenticeships, and 
community colleges to play in preparing workers to transition to the 
jobs that employers are hiring in. One policy that can help both 
employers and employees and strengthen the overall economy is evidence-
based job training programs. In his FY2017 budget President Obama 
outlined a comprehensive strategy to invest in highly demanded skills 
and education to make our economy more competitive in the 21st century. 
While preparing workers for jobs begins with education when children 
are young, it continues in adulthood by helping workers get the skills 
to make the American economy more competitive. One of the most 
important skills all workers need in the 21st century is the ability to 
learn on the job and adapt to new technologies and new ways of doing 
things. That's why successful programs not only teach concrete skills, 
but help participants develop lifelong learning abilities. This is also 
why ultimately the success of our adult training programs has its roots 
in our preschool programs.
    Successful training programs require evidence and adaptation to 
that evidence. WIOA, which covers job training programs for 20 million 
people a year, includes reporting and measurement aspects that will 
build the evidence base about what works in job training, and what we 
can do better. Crucially, WIOA passed with bipartisan support, and 
additional investments could help states and localities set up the 
infrastructure necessary to track what happens to workers after 
training programs.
            the need for new and innovative apprenticeships
    Apprenticeships are an important part of worker training and some 
people are best suited to learn through hands-on doing. Additionally, 
apprenticeships help workers learn the skills associated with learning-
on-the-job, an important skill in its own right in an ever evolving 
economy. Yet, apprenticeships have traditionally focused on a narrow 
slice of the labor market and need to be adapted and expanded to 
provide training for the jobs of the future. Research shows that 
apprenticeships tend to lead to higher-paying jobs--the average 
apprentice earns a starting wage of $60,000, more than the median 
worker's income, and 89 percent of people who complete registered 
apprenticeship programs are employed once their training ends. Based on 
this evidence, the Obama Administration allocated $265 million toward 
apprenticeship funding, and between 2014 and 2016, active 
apprenticeships increased 31 percent. Continuing and building this 
investment is crucial to prepare our economy for the 21st century.
      the importance of fair wages and a competitive labor market
    Government investment in job training and worker investment 
programs is one solution, but it's not the only answer. Businesses can 
do more to invest in workers. Many leading businesses have realized 
that the investments they make in their workers today have long-term 
benefits. From Henry Ford a century ago, leading businesses have 
realized they can attract and retain top talent by paying higher wages. 
Henry Ford called raising wages his best cost-cutting business 
decision. The reason was that his workers knew that it would be hard to 
find as good a job as they had with Ford if they were to lose their 
job. In today's labor market, business policies that may seem like they 
are cost-cutting in the short-run are hurting businesses as well as 
workers. When workers are easily replaced and jobs pay the bare minimum 
needed to hire workers, businesses can easily lose the loyalty and 
conscientiousness that lead to fewer mistakes and higher productivity. 
In fact, there is an important link between business management skills 
and worker skills. Research shows that the businesses with better 
management have workers with higher average skills and have less 
attrition--importantly, they also pay their workers higher wages 
compared to the market as a whole.
    Let me end by noting that much of the strong labor market we're 
seeing today is due to actions Congress, the Administration, and the 
Federal Reserve took that prevented the recession from becoming a 
depression--stimulating the economy through investments and tax cuts, 
stabilizing the financial sector, assisting the auto industry, 
supporting the housing market, and reducing long-term interest rates. 
Estimates from the Council of Economic Advisers show ARRA and other 
fiscal measures saved or created about 9 million job-years through 2012 
and increased GDP by 9.5 percent, relative to its 2008 level. All of 
this shows that policy can, and does, make a difference.
    Thank you.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
 Questions for the Record for Ms. Furchtgott-Roth Submitted by Senator 
                             Amy Klobuchar
the importance of early preparation: elementary and secondary education
    We must do everything in our power to prepare our children for the 
future. Last Congress, we passed a bipartisan bill that makes critical 
updates to ``No Child Left Behind.'' I worked on a provision in this 
bill with my colleague Senator Hoeven to expand STEM opportunities by 
allowing school districts to use Federal funding to create STEM 
specialty schools or to enhance existing STEM programs within schools.
    <bullet>  In addition to improving STEM education, what other steps 
could help prepare our children for postsecondary education and the 
labor force?

    This is a very important question. We need to make sure that 
children graduate with better math and writing skills so they will be 
prepared to start a job, a community college certification, or a four-
year college program.
    I have written about the failure of primary and secondary school 
education in Chapter 3 of my book, ``Disinherited: How Washington Is 
Betraying America's Young,'' coauthored with Jared Meyer and published 
by Encounter Books in 2015. In 2016 the book won the Sir Antony Fisher 
International Memorial Prize from the Atlas Foundation.
    In most fields, if you cannot do your job, you are replaced with 
someone who can. But not in education. First, measuring teaching 
ability is not simple, and matching teachers with students is not 
always easy to do--especially if parents are not allowed to choose 
their children's schools. Second, unqualified teachers can often stay 
on because they are protected by the educational system.
    In 2015, American 15-year-olds scored several points below the 
Organization for Economic Cooperation and Development average on the 
PISA examination in mathematics, considered the gold standard for 
international testing. The U.S. ranking fell to 35th from 28th in 2012 
in math, underperforming the OECD average. Small countries such as 
Latvia, Malta, and Vietnam, and large countries such as China and 
Russia all do better than we do in math. In reading and science, our 
15-year-olds are above average, but around 24th, after Canada and most 
of Europe.
    Children in the OECD member nations and in China, Vietnam, and 
Russia have longer school days and more days in the school calendar 
than do American children. Plus, when these children are at school, 
they have fewer hours of sports, assembly, and politically correct 
programs connected with, for instance, Women's History Month and Earth 
Day. Young Americans are often not taught difficult subjects, such as 
advanced literature or history, serious mathematics, hard sciences, or 
in-demand skills such as computer programming. Schools have dropped 
useful, career-oriented skills such as wood shop and auto mechanics.
    Even if children do not do well in watered-down curricula, they are 
shuffled along to the next grade. The Board of Education is more 
interested in pleasing parents than in providing a solid curriculum. In 
order to graduate, some students have to have a certain number of hours 
of community service, but they do not have to meet standards in reading 
or math.
    This is part of a pattern of American education that measures 
inputs rather than outputs. We measure hours of attendance and hours of 
community service rather than skills acquired. We often give extra 
credit for effort, but we do not require higher levels of competency in 
order to earn a high school diploma.
    In contrast, many countries around the world focus high school 
graduation on a final set of exams, whether General Certificates of 
Secondary Education in England, the baccalaureate in France, or the 
Abitur in Germany. They do not consider hours of community service or 
level of effort; what matters is how well young people can demonstrate 
what they have learned. The result is predictable. Countries that 
evaluate young people on outputs such as how well they perform on an 
exam produce students who are more competent than those in countries 
that measure inputs.
    Despite young Americans' poor performance, one area in which the 
Nation excels is in self-esteem. Eighty-four percent of American 
eighth-graders agreed with the statement ``I usually do well in 
mathematics,'' with 39 percent of eighth-graders agreeing ``a lot.'' 
This confidence does not translate into academic performance, however--
in Singapore, where only 64 percent of eighth-graders have confidence 
in their math ability, the least-confident group of students 
outperforms the most-confident group of American students on 
international math assessments.
    Immediately after World War II, the United States had better high 
school graduation rates than in any other country. How have we fallen 
so far?
    Many believe that systemic poverty and underfunded schools are the 
cause of students' poor performance. But in the last 40 years, school 
funding has exploded. The annual per-student cost of primary and 
secondary education in America is more than $13,000. After adjusting 
for inflation, this amounts to an increase of 239 percent over the last 
half century. America spends more on education per student than any 
other country in the world, yet average student achievement is only 
mediocre. Contrary to what many education advocates argue, increased 
spending by itself has not helped and will not do so in the future.
    Part of the problem lies in dysfunctional families. In the recent 
book ``Hillbilly Elegy,'' author J.D. Vance explained that no matter 
how good his school would have been, he could not concentrate on his 
studies due to his parents' fights at home, their subsequent divorce, 
and his mother's problems with drugs. He was woken several times during 
the night and shuttled from one parent to another. Solutions to these 
problems are beyond the scope of my reply to this question.
    Another problem is that parents often want to send their children 
to good schools, but there are none available. In cities such as 
Washington, D.C., and New York where there are active charter schools, 
the good schools are vastly oversubscribed, and candidates chosen by 
lottery. America needs a system where poor schools go out of business 
and new schools thrive, just as with other businesses, such as 
restaurants.
    We should also look at extending the hours of the school day, 
reducing vacations, and eliminating some of the time devoted to sports, 
so that children have more academic content in the school year.
                               __________
 Questions for the Record for Dr. David Harrison Submitted by Senator 
                             Amy Klobuchar
the importance of early preparation: elementary and secondary education
    We must do everything in our power to prepare our children for the 
future. Last Congress, we passed a bipartisan bill that makes critical 
updates to ``No Child Left Behind.'' I worked on a provision in this 
bill with my colleague Senator Hoeven to expand STEM opportunities by 
allowing school districts to use Federal funding to create STEM 
specialty schools or to enhance existing STEM programs within schools.
    <bullet>  In addition to improving STEM education, what other steps 
could help prepare our children for postsecondary education and the 
labor force?

    STEM education is an important component in college and career 
readiness for students. American Electric Power (AEP) and the AEP 
Foundation partnered with Columbus State to establish the Credits Count 
program to develop STEM career exploration opportunities in middle 
school, and to bolster college readiness by enabling high school 
students to earn college credits while still in high school in STEM-
related fields. The Federal Government can support these regional 
efforts by expanding programs that are working. The National Science 
Foundation's Advanced Technological Education program is an important 
source of venture capital for community colleges to develop programs 
with employers. We are the only community college in the U.S. selected 
for the U.S. Department of Education's Investing in Innovation (i3) 
program, which will fund an aggressive expansion of programs designed 
to enhance college and career readiness in schools with a high 
percentage of low-income families.
    In addition to STEM education, research shows that dual enrollment 
programs, like Credits Count, has a positive impact on college 
readiness. Findings from a report released by the National Student 
Clearinghouse indicated that students who earn college credit while 
still in high school have a 66 percent college completion rate, which 
is 12 percent higher than that of students who do not take dual credit 
classes while still in high school.
    In Ohio, state policy has been adopted to further advance college 
credit pathways for high school students and create a deeper alignment 
between secondary and post-secondary education. College Credit Plus 
enables high school students to begin taking college coursework as soon 
as they are ready. Last year more than 4,800 high school students from 
140 high schools and 60 school districts enrolled at Columbus State 
through College Credit Plus.
    Columbus State has leveraged public-private partnerships and 
extensive employer collaboration described in the written testimony to 
quickly bring proven practices and programs to scale. We expect this 
growth to continue as more students and families look to Columbus State 
for a high-quality, affordable pathway to STEM careers.
                               __________
Question for the Record for Mr. Scot McLemore Submitted by Senator Amy 
                               Klobuchar
question: the importance of early preparation: elementary and secondary 
                               education
    We must do everything in our power to prepare our children for the 
future. Last Congress, we passed a bipartisan bill that makes critical 
updates to ``No Child Left Behind.'' I worked on a provision in this 
bill with my colleague Senator Hoeven to expand STEM opportunities by 
allowing school districts to use Federal funding to create STEM 
specialty schools or to enhance existing STEM programs within schools.
    <bullet>  In addition to improving STEM education, what other steps 
could help prepare our children for postsecondary education and the 
labor force?

    Thank you for the question and your efforts to expand access to 
STEM education. Honda supports early STEM education but also believes a 
clear ``line of sight'' should be provided for students and parents to 
better understand pathways to manufacturing careers. We must create 
enthusiasm for the career paths and job opportunities related to STEM 
disciplines through direct engagement with students and educators. 
Honda's educational video game, mobile labs, and plant tour are 
designed to address outdated perceptions of manufacturing and highlight 
the benefits of a career in modern manufacturing. Providing students 
with hands-on experience, even a virtual simulation, is an important 
step in creating enthusiasm for a manufacturing career and for other 
professional sectors as well. Efforts must also be made to engage 
parents, teachers and guidance counselors, who too often advocate that 
a four-year college route is necessary for professional success. Post-
secondary work-study programs, like Honda's partnership with Columbus 
State Community College, allow students to experience the manufacturing 
environment and graduate debt-free with an associate degree that 
provides them the immediate skills needed to enter the labor force.
                               __________
Questions for the Record for Dr. Betsey Stevenson Submitted by Senator 
                             Amy Klobuchar
                 workforce training and apprenticeships
    Dr. Stevenson, workforce training is crucial to make sure that our 
workers are trained today for the jobs of tomorrow. Senator Collins and 
I have introduced the American Apprenticeship Act, which provides 
competitive grants to states that have developed effective strategies 
to diversify, market, and expand Registered Apprenticeship and pre-
apprenticeship programs. Our community colleges also play an important 
role in helping to create a high-skilled workforce, and I have seen the 
benefits of apprenticeship programs and community colleges working with 
local industries in Minnesota.

    <bullet>  Can you discuss how apprenticeships and community college 
programs can work together to help workers build the skills they need 
to compete in the 21st century economy?
    <bullet>  From your experience, can you discuss in more detail the 
benefits of apprenticeship programs in a broader range of career paths 
and skills?
    <bullet>  What gaps do you currently see in Federal policy when it 
comes to supporting and expanding apprenticeships in the United States?

    In the 20th century, America led the world in educating her 
citizens. While other countries mocked us for training people who they 
claimed didn't need training, we ignored these naysayers and built more 
high schools. The result was that we went from only 6% of 18-year-olds 
with a high school degree in 1900 to more than half by 1940. Today, 
nearly nine in ten Americans age 25 and older have a high school 
diploma, and one in three Americans have a bachelor's degree. Many 
scholars have argued that by bolstering the skills of American workers 
we laid the foundation for the tremendous growth that America 
experienced in the 20th century.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    The rate of return for investing in education is high--each year of 
college raises lifetime earnings by around 8 percent, and completing a 
college degree raises a person's lifetime earnings by more than a 
million dollars. Because a more educated citizenry is a more productive 
workforce, countries with more educated citizens tend to have greater 
GDP per person.
    It is clear that it is time for the United States to take back the 
lead in training our citizens if we want to continue to have a 
successful and innovative economy. So what's the best way to do that? 
We need to make college more affordable and accessible to more people. 
But even more important to our success, we need to increase the rate at 
which people succeed and successfully complete college or other 
training programs. Apprenticeships and other on-the-job training during 
school hold the possibility of preparing students for the world of 
work, while keeping them engaged, motivated, and confident enough to 
complete their studies.
    Many people learn better through situated learning by actively 
participating in the learning experience, such as what occurs during 
apprenticeships. The United States faces two pressing challenges in 
developing apprenticeship programs. The first is that there are far too 
few. Apprenticeships have been growing and the Department of Labor, as 
I'm sure you are aware, currently lists more than a half million active 
apprentices. A study by the Center for American Progress, however, 
argues that this is less than a tenth of what other countries, such as 
the United Kingdom, have once you adjust for population size. To put it 
in perspective, there are roughly 20 million people attending college. 
We could and should expand apprenticeship slots substantially.
    The second problem is that apprenticeships need to move beyond the 
trade occupations into services. The U.S. economy is a service-based 
economy. Construction and manufacturing jobs, a focus for many 
apprenticeship programs, are a mere 13 percent of all jobs in the 
economy. Eighty-four percent of workers employed in the private sector 
in the United States work in the service-producing sector. A third of 
our exports are services, such as business and professional services 
like consulting, computer services, and financial services. In order 
for apprenticeships to succeed in training workers for the jobs of the 
future, our apprenticeship programs need to expand into the types of 
jobs workers are more likely to be hired into. For instance, last month 
45 thousand jobs were created in health care and social assistance. 
There need to be more apprenticeship programs dedicated to areas such 
as health and educational services.
    Community colleges can play an important role in developing hybrid 
programs in which students do necessary classroom learning that is 
complemented by on-the-job training. Such programs may be particularly 
important to raise productivity in the service sector and to provide 
workers with the skills they need as our economy continues to shift 
toward one that requires workers to have more adaptable skills.
  

                                  [all]
</pre></body></html>
